<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                        WEDNESDAY, MAY 22, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:31 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Feinstein, Tester, Udall, Merkley, 
Begich, and Murkowski.

                       DEPARTMENT OF AGRICULTURE

                      United States Forest Service

STATEMENT OF TOM TIDWELL, CHIEF

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call the hearing to order. And as the 
first order of business, let me wish Senator Murkowski a happy 
21st birthday.
    Senator Murkowski. Thank you.
    Senator Reed. Happy birthday.
    I want to welcome all of our witnesses and my colleagues to 
the fiscal year 2014 hearing on the budget to the U.S. Forest 
Service (USFS). And on behalf of the subcommittee, let me 
particularly welcome Tom Tidwell, the Chief of the USFS. Thank 
you, Chief. You have been a great leader at the agency and 
someone we have enjoyed working with immensely.
    I'd also like to welcome Barbara Cooper, the USFS acting 
Budget Director. Ms. Cooper, thank you very much for being here 
also.
    The President's fiscal year 2014 budget request for USFS 
programs totals $4.84 billion in discretionary spending. The 
request is $62 million, or a 1-percent increase, more than the 
fiscal year 2013 enacted level.
    Chief Tidwell, in reviewing your budget request, it's clear 
that there's a theme: making tough choices so that the agency 
can continue to fight wildland fires. The fire budget, as we 
spoke, seems to drive so much of the USFS.
    Within the total amount provided, the budget request does 
include an increase of $79 million for wildland fire 
management, for a total of $2.046 billion, an increase of 3.5 
percent.
    In addition, the request provides level funding for the 
FLAME Fund, at $315 million. However, that amount doesn't fully 
cover the increases that are needed within the fire program, 
including a $65 million increase to fully fund the 10-year 
rolling average for fire suppression and a $50 million increase 
to fund next-generation air tanker contracts to replace the 6-
year-old P2 aircraft.
    That means that your budget sustains some tough reduction 
to programs like Hazardous Fuels Reduction and State Fire 
Assistance.
    I'm very concerned, as I know you are, Chief Tidwell, about 
the precedent that's been set with the fire budget. As the 10-
year average goes up every year budgets are shrinking and the 
need to fight wildland fires is crowding out many worthy 
programs within your budget, as well as the budgets of other 
agencies in the Interior, Environment, and Related Agencies 
bill. Indeed, I note that under the President's fiscal year 
2014 budget proposal, funding for USFS wildland fire programs 
alone exceeds the investment in clean water and drinking water 
infrastructure by more than $450 million.
    As critical as your fire programs are, it is a challenge to 
explain in my parts of the country, and my State included, why 
fighting these fires requires so much resources that takes away 
from desperately needed improvements and jobs in infrastructure 
all across the country.
    We also need a much better strategy for paying for the cost 
of fires that exceed the 10-year average, something that has 
happened 9 out of the last 10 years. In the past, the Congress 
has been able, on a bipartisan and bicameral basis, to provide 
emergency supplemental funds to pay for disasters like 
wildfires in a timely way.
    This past year, however, our colleagues in the House chose 
to add funds to pay for firefighting shortfalls within the 
overall discretionary appropriations cap rather than fund those 
needs as emergency spending. All told, we appropriated $423 
million to pay for these additional firefighting needs. And 
that's $423 million that you have to find in other parts of 
your budget or we have to find in other parts of other agency 
budgets. These funds are important, but ultimately, as I 
suggest, other discretionary programs must pay for them.
    How to improve our capacity to budget for catastrophic 
fires and other disasters is a theme that we'll be grappling 
with during this year's appropriation process and something 
I've discussed with Chairwoman Mikulski and something, Chief, 
that I'm sure we will talk together, along with the ranking 
member, to try to come up with a better way to proceed.
    We cannot allow our obligations, and we do have to fight 
these fires and we do have to support local communities, to 
erode other investments that are equally important to the 
nation.

                       STATE AND PRIVATE FORESTRY

    I would also like to discuss a proposal of the State and 
Private Forestry Programs, programs that are important to all 
States, including my home State. Overall, the request also 
includes a 5 percent cut to State and Private Forestry 
Programs, for a total of $240 million. Within that amount, the 
budget does propose to allow States to compete for a new $20 
million landscape scale restoration program. However, it does 
include a number of cuts to specific grant programs, including 
a $7 million cut to the Urban Forestry Program, without 
offering a concrete vision of what States like Rhode Island, 
New York, New Jersey, and other urban areas have to do not only 
to participate, but also to get a more reasonable share of 
resources.

                         NATIONAL FOREST SYSTEM

    The budget also requests $1.56 billion for operations of 
the National Forest, which is a 1.5-percent increase more than 
the fiscal year 2013 enacted level. Within that amount, the 
administration is again proposing a major budget restructuring, 
consolidating three major programs to create a new $757 million 
Integrated Resource Restoration Program.
    As you know, Chief, the subcommittee has allowed you to 
move forward with a pilot program in three USFS regions to test 
this new restoration program. And my colleagues and I will all 
want to hear more about the progress that you're making on the 
ground as we consider your request to implement this program on 
a national scale. I expect we'll also want to hear more about 
the budget tradeoffs that you're making to implement this 
proposal, including steep reductions to other operating 
programs like law enforcement and recreation, as well as other 
reductions to capital improvement projects.
    Finally, there are a few other bright spots in the request 
that are worth noting. The budget does include a $15 million 
investment to boost forestry research, for a total of $310 
million. We talked about that, and that's absolutely important. 
And the request includes a total of $118 million for land 
acquisition, the Forest Legacy project, as part of the 
President's $400 million proposal for discretionary Land and 
Water Conservation Fund (LWCF) programs. That amount is an 11-
percent increase more than fiscal year 2013.
    As my remarks suggest, Chief, we have a lot to discuss this 
morning. Thank you for being here, and let me now recognize my 
ranking member. I won't say ``the birthday girl.''
    Senator Murkowski. Thank you.
    Senator Reed. Senator Murkowski.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman, and welcome, 
Chief. It's good to see you back here. We had a chance to talk 
during your testimony before the Energy Committee last month, 
so this is kind of a follow-on to that.

                          SECURE RURAL SCHOOLS

    This morning, I'm going to focus my opening statement on an 
issue that stems from last year's Forest Service budget, and 
that's your decision in March to retroactively claw back these 
payments made to 41 States receiving Secure Rural Schools 
payments, including Alaska, because of the sequester.
    I believe that this situation teaches a larger lesson about 
the failures of the agency's current forest management policy 
and how that is then reflected in your fiscal year 2014 budget.
    On March 19, you sent the State of Alaska a letter 
demanding the repayment of $826,000 in Secure Rural Schools 
funding. In response, our Governor Parnell sent a letter to you 
on April 28 refusing to pay back the funds, citing the lack of 
any legal authority offered by the USFS. And, Mr. Chairman, I 
have a copy of the Governor's letter that I would like to be 
included in the record.
    Senator Reed. Without objection.
    [The information follows:]
                    U.S. Department of Agriculture,
                                            Forest Service,
                                                    Washington, DC.
Hon. Lisa Murkowski, Ranking Member,
U.S. Senate, Energy and Natural Resources Committee,
Hart Senate Office Building, Washington, DC.
    Dear Senator Murkowski: Thank you for your letter of April 24, 
2013, cosigned by Senator Ron Wyden, regarding the impact of 
sequestration on payments under the Secure Rural Schools Act.
    To fulfill our commitment to rural communities, Secure Rural 
Schools payments were made on time in early January 2013, while the 
sequestration debate continued in Congress. Subsequently, the 
sequestration took effect, and agencies were required to implement it.
    The Balanced Budget and Emergency Deficit Control Act of 1985 
(BBEDCA), as amended, requires that sequestration be taken at the 
budget account level, and applied equally to each program, project, and 
activity (PPA) in those accounts. In the case of Secure Rural Schools, 
the relevant account is the Forest Service Permanent Appropriations 
account, which includes two PPAs for Secure Rural Schools: one 
comprising the fiscal year 2013 budget authority from receipts in 
fiscal year 2012 (the ``receipts PPA''), and the other comprising 
additional fiscal year 2013 budget authority provided from the U.S. 
Department of the Treasury to cover the shortfall in receipts necessary 
to make the full Secure Rural Schools payments (the ``Treasury payments 
PPA''). While funding for Secure Rural Schools payments is based on the 
level of receipts collected in fiscal year 2012, section 102(e) of the 
statute directs that the funds be paid after the end of the fiscal 
year. Therefore, it is budget authority for fiscal year 2013 subject to 
sequestration under BBEDCA.
    In calculating the sequestered amount, BBEDCA repeatedly refers to 
the amounts for a ``fiscal year'' or ``that year'' (2 U.S.C. 901a). 
Thus, consistent with the application of sequestration across programs 
of the U.S. Department of Agriculture (USDA), and across the Government 
as a whole, the amount of the sequestration is based upon the full 
budgetary authority in the receipts PPA and the Treasury payments PPA 
for the entire fiscal year, not on the amount remaining available as of 
March 1, 2013, the date of the sequestration order.
    Secure Rural Schools payments are made from both PPAs. The funding 
sources are not tied to a particular title, so for purposes of 
sequestration, it does not matter which title's funding stream is cut 
in order to meet the full sequestered amount, as long as the required 
reductions are taken from each PPA. USDA's goals in implementing 
sequestration have been to administer reductions in the most equitable 
and least disruptive manner possible. In this instance, USDA has 
determined that in order to ensure equity in the treatment of States, 
each State should take the same percentage reduction to Secure Rural 
Schools payments.
    States can pay back the mandated sequestered amounts from their 
title I and title III money, or reduce title II allocations by the 
requisite amount where applicable. This approach best ensures equity 
and uniformity in the implementation of the reductions, as it applies 
the same percentage reduction to the payments for each State. We 
encourage the States that have the option to elect to have the Forest 
Service use title II funds to cover the sequestered amount, and thus 
avoid impacts to their schools and road funding and eliminate the need 
for repayment.
    Regarding the assessment of interest, penalties, and administrative 
costs, the Forest Service will utilize existing Federal and Agency 
guidelines to waive these costs, where applicable. We are committed to 
working with you to mitigate the impacts of these actions on States and 
counties.
    Again, thank you for your writing. A similar response is being sent 
to Senator Wyden.
            Sincerely,
                                         Thomas L. Tidwell,
                                                             Chief.
                                 ______
                                 
                                           State of Alaska,
                                        Juneau, AK, April 28, 2013.
Mr. Thomas Tidwell, Chief,
Forest Service, U.S. Department of Agriculture,
Independence Ave. SW, Washington, DC.
    Dear Mr. Tidwell: In a letter dated March 19, 2013, you advised 
that the mandated Federal budget reductions (sequester) apply to 
revenue generated in 2012 and paid in 2013 under titles I and III of 
the Secure Rural Schools and Community Self-Determination Act. Since 
the United States Forest Service has already made its payment to 
Alaska, you are seeking a repayment of the sequester percentage of 5.1 
percent, which amounts to $707,795.40 under titles I and III, as well 
as a withholding of $118,536.50 (or 5.1 percent) of title II funds not 
yet allocated. You gave Alaska the option of having the total amount of 
$826,331.90 reduced from the State's title II funds or having that sum 
collected from funds already disbursed under titles I and III.
    On behalf of the proud forest communities that received fiscal year 
2012 Secure Rural Schools aid in January of 2013, I maintain that 
neither the Balanced Budget and Emergency Deficit Control Act of 1985, 
as amended by the Budget Control Act of 2011, nor the Anti-Deficiency 
Act, authorize you to request repayment of title I and title III 
outlays. As such, I will not request the Alaska State Legislature 
consider such an appropriation.
    Additionally, your letter cites no authority for the reduction of 
title II funds. The titles I and III funds have been allocated and used 
in accordance with the Federal law that authorized their disbursement. 
You have cited no valid authority for your retroactive efforts to have 
those funds repaid or offset.
    This sequester dilemma highlights the continued failure of the 
United States Forest Service to successfully manage the nation's 
forests, especially the Tongass. I stand ready to discuss solutions to 
allow our forests to once again support healthy communities--not 
impoverish them.
            Sincerely,
                                              Sean Parnell,
                                                          Governor.

    Senator Murkowski. The Governors of Alabama and Wyoming 
have since joined Governor Parnell for similar reasons.
    I'd like to repeat, Chief, what I stated last month when we 
were in the Energy Committee. You have got to find a different 
path here that does not punish these struggling rural 
communities for the agency's failure to manage our Nation's 
forests. I'm going to be asking you today how you plan to 
respond to Governor Parnell and to the other States that have 
refused to pay.
    Now, some might ask, ``Why are you so upset? $826,000, when 
you compare it to the millions, and really billions, that we're 
usually talking about here in Washington, the numbers seem 
relatively insignificant.'' But for me, this is pretty simple: 
I just can't go back to the superintendent of the schools in 
Wrangell, Alaska, because for him, these few thousands of 
dollars mean everything to him and his budget.
    I think that this decision by the agency represents the 
latest in a long line of misguided Forest Service actions that 
have had a crippling impact on Southeast Alaska. Back in 1990, 
the region had more than 4,500 timber jobs, a vibrant wood 
products industry. Local communities at that time received 25 
percent of the revenue generated from timber sales on the 
Tongass National Forest, and they used this appropriately for 
roads and schools. And there was no need for Secure Rural 
Schools funding.

                           TIMBER MANAGEMENT

    Now, because of USFS policies, there are only about 300 
logging jobs left, and the region must rely in part on 
mandatory payments from the Federal Government to operate its 
schools. And sadly, just as Alaskans have learned that we can't 
rely on the USFS to provide a stable timber supply, now we 
can't even rely on the agency to send us the check that we're 
due and not demand part of that money back.
    It's almost as though we're watching ``Groundhog Day'' all 
over again. Every year, you come before the Energy Committee. 
You come before this subcommittee. We pledge that we're going 
to work together on things. We're going to improve the timber 
sale program on the Tongass so we avoid losing what remains of 
the industry. I always describe it as folks just kind of 
hanging on by their fingernails. You agree. You know.
    But then we come back, and it's a year later, and we're 
having the same conversation again. I think sometimes the 
script changes a little bit. Some years, it's litigation that's 
to blame. Other years, it's poor timber markets. This year, 
it's probably going to be tight budgets we're talking about or 
the impact of the sequester.
    But one thing never changes. And that is the declining 
harvest in the Tongass. In 2008, at the beginning of this 
administration, the level was only 28 million board-feet. Last 
year, it was 21 million board-feet, near the all-time low of 19 
million in 2007.
    We talked, again, about the agency's plan for transitioning 
to second growth. And you know that I'm skeptical there. It's 
going to be years before these trees are mature and can support 
an annual sales program.
    So I'm not encouraged by this year's budget request, which 
sets 2.4 billion board-feet as a target for the timber program 
nationally, when just last year you testified about ramping up 
to 3 billion board-feet as part of the agency's restoration 
strategy.
    On May 2, I sent a bipartisan letter with 12 of my 
colleagues to the President, asking for him to reconsider these 
timber programs. And I know my colleague from Montana was 
involved with that.
    So I want to be clear. I do support the agency's many 
programs that deal with recreation and with wildlife. But these 
objectives within that aspect of the Forest Service shouldn't 
come at the expense of managing our forests in a way that not 
only provides jobs, but lowers the fire risks that the chairman 
was talking about and really creates a more resilient 
environment. I think that's what your multiple-use mandate 
requires.
    So I hope today that you can give me a reason to believe 
that we're not going to be sitting here again next year at 
these hearings with you talking about lack of timber supply on 
the Tongass and with an industry that is just barely able to 
get by. I want this year to be different. You've indicated that 
we're going to have an opportunity to visit with one another in 
Alaska. I look forward to that. But I think you and I would 
agree that we have some more business to be done.
    I look forward to your answers here this morning and 
appreciate the courtesy of the Chair.
    Senator Reed. Thank you very much, Senator. And if anyone 
else would like to make a brief statement? Senator Tester.
    Senator Tester. Real quick, if I might. Thank you, Mr. 
Chairman, ranking member.
    First of all, thank you for being here, Chief Tidwell. I 
appreciate the job that you do. You oftentimes are dealt a very 
tough hand, and you play the cards reasonably well, from my 
perspective. So, thank you for that.
    Look. I don't need to tell you how important the USFS is in 
a State like Montana. You've been there, you've done that. The 
fact is we lost 1.3 million acres to fire last year, another 
million acres to beetle kill. We've got some issues as far as 
mitigation of catastrophic wildfires, as the chairman talked 
about, and how we're going to deal with that in the short term 
and the long term. I look forward to fleshing that out more as 
the questions go.
    And I also look forward to working with you to give the 
USFS more tools, more tools to be able to manage these forests, 
manage them in a reasonable way, getting folks to work together 
from the ground up, making sure that the industry and 
environmentalists and the USFS and the Congress are all on the 
same page.
    Thank you for your work. I look forward to the questions.
    Senator Reed. Any of my other colleagues? Senator Merkley, 
please.

                        WILDLAND FIRE MANAGEMENT

    Senator Merkley. Thank you, Mr. Chair, and I'll expand 
during the question period. But we had a fire the size of Rhode 
Island last year in Oregon. We had the worst fire season, you 
know, in 100 years. We lost a lot of rangeland, a tremendous 
amount of timber. And we're in a situation where the same time 
that's going on, and largely because of the buildup of 
hazardous fuels, we're looking at a proposed budget that cuts 
the hazardous fuels reduction in half.
    Yet everyone after these fires said, ``We've got to get in 
there and get more of these hazardous fuels out. We've got to 
operate on a 15-year cycle to be ahead of the 20-year fire 
cycle, not a 30-year cycle.'' And instead we're looking at a 
60-year cycle.
    The fires that start on public lands then move onto private 
land create an intolerable situation for our private landowners 
and huge damage to the public-trusted lands. So it's extremely 
troubling, the budget as it's laid out. I know that you're 
operating with limited resources and that it's a huge 
challenge. But somehow, we've got to figure out a way not to 
just be trying to mop up fires after they happen, but to manage 
the forests well on the front end.
    Senator Reed. I believe no more of my colleagues have 
opening statements. If that's the case, Chief Tidwell, please, 
your statement.

                    SUMMARY STATEMENT OF TOM TIDWELL

    Mr. Tidwell. Mr. Chairman, members of the subcommittee, 
it's a privilege to be here again today to discuss the 
President's fiscal year 2014 budget request for the Forest 
Service. I cannot thank you enough for the support from the 
subcommittee over the years. I continue to look forward to 
working with you to do what we can to provide what the public 
wants and needs from their National Forests and Grasslands.
    The President's budget reflects our commitment to strategic 
investments that are needed to grow the economy while 
exercising fiscal restraint. The budget does make some very 
difficult tradeoffs between key programs. It does this by 
focusing on the economic growth for rural America, including 
the 450,000 jobs that are supported from activities on our 
National Forests and Grasslands.
    Now, through three key objectives, I believe this budget 
request is a good investment for the economic growth in rural 
America. The first part of that is it will get us back on track 
with our accelerated restoration strategy to restore and 
sustain our national forests and to be focused on 65 million to 
82 million acres that need some form of restoration.
    It will do this by requesting full funding through our 
collaborative forest restoration fund. It will also request 
permanent authorization for stewardship contracting that is a 
tool that provides certainty so that private entities can 
invest in the wood products industry. It also will allow us to 
expand the use of landscape scale analysis so we can look at 
hundreds of thousands of acres at one time, determine the 
restoration activities that need to occur, and be able to cover 
that analysis with one EIS.
    It also asks for an additional $13 million in research that 
is dedicated to increasing the markets for wood through USDA 
Green Building Initiative, our Wood Energy Initiative, and also 
our research into nanotechnology.
    The second key objective deals with fire. This budget 
request provides a level of preparedness that will continue our 
success to suppress 98 percent of wildland fires during initial 
attack. It does also request an increase from fiscal year 2012 
to what we're requesting of $138 million in suppression to 
fulfill our agreement to meet the 10-year average.
    It also will continue to reduce the threat of wildfires to 
homes and communities by reducing hazardous fuels on 
approximately 685,000 acres of the highest priority acres in 
the wildland-urban interface. And, it also requests an 
additional $50 million to modernize our large airtanker fleet.
    The third objective is to continue with our focus on 
America's Great Outdoors Initiative, which will help support 
community-based conservation, provide opportunities for 
economic expansion to retain and create jobs by first providing 
the recreational opportunities that support the 166 million 
people that visit the National Forests and Grasslands. And it's 
through their activities, their economic activities that 
support more than 200,000 jobs.
    Also, we want to focus on getting more volunteers out to be 
connected to help us to do the work, but also to increase their 
connection with the outdoors and also expand our Youth 
Conservation Corps to provide more opportunities for employment 
with our youth to be outdoors, understanding the benefits of 
working in conservation.
    It also requests an increase in LWCF funding. This is based 
on what we hear from the public throughout this country about 
the strong support for the need for us to acquire those small 
parcels of land that are critical in-holdings to make sure that 
we're providing the habitat that is necessary to support 
species, but to provide recreational access. In every case 
where we're acquiring land, it always reduces our 
administrative costs of managing that part of the National 
Forest.

                       STATE AND PRIVATE FORESTRY

    Now, we're going to continue to work with the States 
through our State and Private Forestry Programs to promote 
conservation and to keep private forests forested. We also will 
encourage biomass utilization and other renewable energy 
opportunities while working to process oil and gas permit 
applications and energy transmission proposals much more 
effectively and efficiently.

                          SECURE RURAL SCHOOLS

    Our budget request also proposes a framework for 
reauthorization of the Secure Rural Schools Act. In addition to 
these three key objectives, we're going to continue our focus 
on reducing our administrative costs by increasing our 
operational efficiencies. So over fiscal year 2013 and fiscal 
year 2014, we're going to reduce our overhead costs by another 
$100 million. We're going to continue to focus on creating 
efficiencies in our processes.
    For instance, when it comes to doing the environmental 
analysis and sale preparation for timber sales, since 1998, 
funding has been reduced by $185 million when it's adjusted for 
inflation. Our staff has been reduced by 49 percent. But during 
the same time, we have reduced the unit cost by 23 percent.
    The other thing we'll continue to focus on is doing the 
best job we can to deal with wildfire. Where we will continue 
to have 98 percent success on initial attack, for those large 
fires that escape initial attack we're going to continue to use 
our science, our experience, and our expertise to reduce those 
suppression actions that are unnecessary and not effective. By 
doing this last year, we reduced costs by avoiding unnecessary 
risks by $377 million.

                         NATIONAL FOREST SYSTEM

    Our goal is to increase the collaborative efforts to 
encourage greater public involvement and management of the 
public National Forests and Grasslands. To maintain and restore 
healthy landscapes, we need to take care of the ecosystems. We 
also need to support healthy, thriving communities and provide 
jobs in rural areas.
    Mr. Chairman, thank you again for the opportunity to 
address this subcommittee, and I look forward to answering your 
questions.
    [The statement follows:]
                   Prepared Statement of Tom Tidwell
    Mr. Chairman and members of the subcommittee, thank you for 
inviting me here today to testify on the President's budget request for 
the United States Forest Service (USFS) for fiscal year 2014. I 
appreciate the support this subcommittee has shown for USFS in the 
past, and I look forward to continuing to work together with members of 
the subcommittee to ensure that stewardship of our Nation's forests and 
grasslands continues to meet the desires and expectations of the 
American people. I am confident that this budget will allow the Forest 
Service to meet this goal while demonstrating both fiscal restraint and 
efficient, cost-effective spending.
    Our Nation can and should take steps to make Government more 
effective and more efficient in the 21st century. The fiscal year 2014 
budget that the President is proposing reflects the difficult choices 
we need to make to reduce spending while investing in long-term 
economic growth and job creation. To make the strategic investments 
needed to grow the economy while exercising fiscal restraint, this 
budget makes difficult tradeoffs between programs. It also reflects 
efficiency and improvements to reduce our administrative costs. It is 
designed to appropriately fund many of the programs that matter to 
Americans.
               value of the united states forest service
    Our mission at USFS is to sustain the health, diversity, and 
productivity of the Nation's forests and grasslands to meet the needs 
of present and future generations. The mission includes helping 
Americans use and enjoy the lands and waters that belong to them as 
citizens of the United States. USFS manages a system of national 
forests and grasslands on an area almost twice the size of California--
193 million acres in 44 States and Puerto Rico. These lands entrusted 
to our care provide some of the richest resources and most breathtaking 
scenery in the Nation, as well as drinking water for millions of 
Americans.
    As the Nation's leading forestry organization, we also serve 
Americans in other ways. USFS was founded in 1905 to stop the 
degradation of watersheds and manage the lands for the benefit of all 
Americans. To that end, in addition to the National Forest System, 
agency programs support the sustainable stewardship of more than 600 
million acres of forest land across the Nation, including 423 million 
acres of private forest land, 68 million acres of State forest land, 18 
million acres of Tribal forests, and 100 million acres of urban and 
community forests.
    In addition, we maintain the largest forestry research organization 
in the world, with more than a century of discoveries in such areas as 
wood and forest products, fire behavior and management, and sustainable 
forest management. In an age of global interconnectedness, we also 
support the sustainable stewardship of forests around the world; we 
have served people in more than 80 countries, which have direct 
benefits to the American forestry economy through marketing American 
forest products and invasive species prevention.
    America's forests, grasslands, and other open spaces are integral 
to the social, ecological, and economic well-being of the Nation. The 
benefits from Forest Service programs and activities include jobs and 
economic activity, especially in rural areas where other sources of 
employment and economic growth might be few. In fiscal year 2011, for 
example, the various activities on the National Forest System 
contributed more than $36 billion to America's gross domestic product, 
supporting nearly 450,000 jobs.
    The most popular uses of the national forests and grasslands are 
associated with outdoor recreation. Our increasingly diverse visitor 
population engages in activities such as camping, picnicking, 
snowmobiling, cross-country skiing, equestrian use, firewood and forest 
product gathering, all-terrain vehicle riding, skiing, snowboarding, 
hunting, fishing, hiking, wildlife viewing, driving for pleasure, and 
visiting cultural sites and visitor centers. The national forests and 
grasslands attract about 166 million visits per year, supporting about 
205,000 jobs and contributing $13.6 billion to the Nation's gross 
domestic product each year. Fifty-five percent of our visitors engage 
in a strenuous physical activity, contributing to their health and 
well-being.
    Noncommercial uses of forest and grasslands also provide vital 
benefits to the American people. For example, more than one-half of our 
Nation's freshwater flows from public and private forest land, and 
about 60 million Americans rely on drinking water that originates on 
the National Forest System. Forest Service land management, combined 
with USFS assistance to private landowners, helps protect the single 
greatest source of drinking water in the Nation.
    USFS's creation of jobs and economic opportunities is not limited 
to rural areas. Through Job Corps and other programs, we provide 
training and employment for America's urban youth, and we help veterans 
transition to civilian life. Our Urban and Community Forestry Program 
has also provided jobs and career-training opportunities for 
underemployed adults and at-risk youth through activities such as tree 
care and riparian corridor restoration.
    We also engage a wide range of partners who contribute to 
investments in land management projects and activities. In fiscal year 
2012, we entered into more than 7,700 grants and agreements with 
partners who contributed a total of about $535 million in cash and non-
cash (in-kind) contributions. Combined with our own contribution of 
nearly $779 million, the total value of these partnerships was over 
$1.3 billion. The growing value of grants and agreements demonstrates 
the increasing importance of partnerships in fulfilling the USFS 
mission.
    Forest landowners of all kinds benefit from our forest-related 
research, as does anyone who buys products made from wood. For example, 
USFS scientists have developed a free software application that helps 
people identify invasive plants and provides control recommendations. 
Our research and development bring all kinds of benefits to the 
American people, improving their quality of life.
    More than 50 percent of the Nation's forests--more than 420 million 
acres--are privately owned. Working with the State Foresters, we help 
State forest managers and private forest landowners manage America's 
working forests sustainably. Through our Forest Health Management 
program, for example, we monitor and assess forest health conditions on 
all lands nationwide, both public and private, tracking outbreaks of 
insects and disease and providing funds for treating areas at risk.
    In February 2011, President Barack Obama launched the America's 
Great Outdoors Initiative, setting forth a comprehensive agenda for 
conservation and outdoor recreation in the 21st century. The initiative 
challenges the American people to work together to find lasting 
conservation solutions, based on the premise that protecting America's 
natural heritage is a goal shared by all. In tandem with the 
President's initiative, Secretary of Agriculture Tom Vilsack outlined 
an all-lands vision for conservation. He called for partnerships and 
collaboration to reach shared goals for restoring healthy, resilient 
forested landscapes across all landownerships nationwide.
    Our fiscal year 2014 budget request is accordingly designed to help 
us work with partners across borders and boundaries to invest in 
America's green infrastructure at a landscape scale. Our focus on 
landscape-scale conservation dovetails with broader administration 
priorities, including the President's America's Great Outdoors 
Initiative, the Secretary's ``all-lands'' vision, and the Department of 
Agriculture's priority goal of enhancing water resources. Our goal at 
USFS is to ensure the ability of our Nation's forests and grasslands to 
deliver a full range of jobs and benefits, both now and for generations 
to come.
                       challenges to conservation
    Our Nation's ability to protect its forest and grassland resources 
is now at risk due to drought, invasive species, and 
uncharacteristically severe wildfires and outbreaks of insects and 
diseases. Such stresses and disturbances are affecting America's 
forests, grasslands, and watersheds on an unprecedented scale. Twenty-
seven percent of all forest-associated plants and animals in the United 
States, a total of 4,005 species, are at risk of extinction. Habitat 
degradation is the main reason--affecting 85 percent of all imperiled 
species. Many species are also threatened by nonnative invasive 
species, which affect 49 percent of all imperiled species.
    Although biodiversity is exceptionally high on the national forests 
and grasslands, habitat degradation and invasive species remain serious 
threats. We estimate that watershed functionality is impaired or at 
risk on 48 percent of the watersheds on National Forest System lands. 
Severe outbreaks of western forest pests have affected 32 million acres 
on the national forests alone. Between 65 million and 82 million acres 
are in need of fuels and forest health treatments--up to 42 percent of 
the entire National Forest System.
    Part of the problem is severe drought, resulting in extreme fire 
weather, very large fires and longer fire seasons. Since 2000, at least 
10 States have had their largest fires on record, and some have had 
their records broken more than once. In 2000, for the first time since 
the 1950s, more than 7 million acres burned nationwide; and in 2012, 
more than 9 million acres burned.
    The spread of homes and communities into areas prone to wildfire is 
an increasing management challenge. From 2000 to 2030, we expect to see 
substantial increases in housing density on 44 million acres of private 
forest land nationwide, an area larger than North and South Carolina 
combined. More than 70,000 communities are now at risk from wildfire, 
and less than 15,000 have a community wildfire protection plan or an 
equivalent plan.
    A growing proportion of the USFS budget has been needed for fire-
related activities of all kinds. In fiscal year 1991, for example, 
fire-related activities accounted for about 13 percent of our total 
budget; by fiscal year 2012, it was 40 percent. That has left a smaller 
amount of funding for nonfire purposes (watersheds, wildlife, 
recreation, and other benefits and services). With increasingly limited 
funding, we need to approach our work differently.
                     budget request and focus areas
    The fiscal year 2014 President's budget request is designed to meet 
the challenges we face. The President's proposed overall budget for 
discretionary funding for the Forest Service in fiscal year 2014 is 
$4.9 billion. It shifts $62 million from key programs to meet the 
requirement to fund the 10-year rolling average of fire suppression 
costs.
    In response to the challenges we face, we are focusing our efforts 
on three key areas:
  --restoring ecosystems;
  --strengthening communities while providing jobs; and
  --managing wildland fires.
    In these tough economic times, our proposed budget balances 
spending on priorities in each of these three focus areas against 
measures to decrease costs. Through strategic partnerships, we will 
continue to leverage our funds to accomplish more work, yielding more 
benefits for the people we serve while also sustaining forest and 
grassland ecosystems for future generations.
                          restoring ecosystems
    Our approach to ecological degradation is to accelerate ecological 
restoration. USFS is restoring the ability of forest and grassland 
ecosystems to resist climate-related stresses, recover from climate-
related disturbances, and continue to deliver the values and benefits 
that Americans want and need. Reforestation, habitat enhancements, 
invasive species control, hazardous fuels treatments, and other 
measures can help to make an ecosystem more resilient and more capable 
of delivering benefits, such as protecting water supplies and 
supporting native fish and wildlife. Our budget request for fiscal year 
2014 is specifically designed to support integrated restoration efforts 
across USFS.
    Through Integrated Resource Restoration, land managers are 
accelerating the pace of restoration and job creation, in part by using 
USFS's Watershed Condition Framework to identify high-priority 
watersheds for treatment. Managers use Integrated Resource Restoration 
to integrate activities such as hazardous fuels reduction, road 
decommissioning, and removal of barriers to fish passage. Outcomes 
include reducing risk from fire, insects, and diseases; maintaining 
clean drinking water for communities; and supporting more local jobs 
and economic opportunities. For example, in fiscal year 2012 through 
our overall efforts we treated almost 2.6 million acres to sustain or 
restore watershed function and resilience. Under the pilot program, 
through restoration activities we treated almost 800,000 acres. We 
propose fully implementing Integrated Resource Restoration across USFS 
in fiscal year 2014.
    The growing need for restoration-related work and investments on 
the National Forest System is providing jobs and community benefits. 
The Collaborative Forest Landscape Restoration Program was created in 
2009 to restore high-priority forested landscapes, improve forest 
health, promote job stability, create a reliable wood supply, and 
reduce firefighting costs across the United States. After the program 
was created, the Secretary of Agriculture evaluated collaboratively 
developed project proposals, selecting 20 large-scale projects for 10-
year funding, along with three additional high-priority projects for 
funding from other sources. They support an array of restoration 
activities, including reducing hazardous fuels, restoring watershed 
function and resilience, and improving forest vegetation and wildlife 
habitat. Continued implementation of these projects is a high priority 
in our fiscal year 2014 budget request. For example, the 23 projects 
under this program have created or maintained approximately 7,500 jobs 
over the last 2 years and generated almost $272 million in labor 
income. They have also reduced the danger of fire on more than 600,000 
acres near communities and enhanced clean water supplies by remediating 
or decommissioning 6,000 miles of roads.
    USFS is creating partnerships across the country to help protect 
water by reducing the risk of fire in municipal watersheds that provide 
communities with water for drinking and other uses, such as irrigation, 
fisheries, and recreation. To help leverage our funding, we are 
proposing a new program for Restoration Partnerships in fiscal year 
2014. The program will foster some of the most advanced public-private 
partnership initiatives in the Federal Government, leveraging new 
outside resources to support USFS's restoration efforts. Most funding 
under the new program will go to support cost-share projects that will 
be competed for at the national level to attract matching financial 
support from partners.
    Another USFS program with a restoration emphasis is Forest Health 
Management. Under the program, we conduct risk mapping and surveys to 
identify the areas at greatest risk from insects and disease, including 
invasive species such as emerald ash borer and white pine blister rust. 
In identifying the areas at greatest risk and deciding on how to 
respond, we work with the States, in part by utilizing the State Forest 
Action Plans to help inform response decisions.
    USFS is finalizing directives for implementing the new National 
Forest System Land Management Planning Rule governing how land 
management plans are written for the national forests and grasslands. 
Half of all units on the National Forest System have plans that are 
more than 15 years old. Successful forest plan revisions are key to 
meeting the Forest Service's contemporary land management challenges. 
The new 2012 Planning Rule will help land managers focus on 
collaborative watershed restoration while promoting jobs and economic 
opportunities in rural communities.
    In concert with the President's America's Great Outdoors Initiative 
and Secretary Vilsack's all-lands vision for conservation, the Forest 
Service has launched an initiative to accelerate restoration across 
shared landscapes. The Accelerated Restoration Initiative builds on 
Integrated Resource Restoration, the Collaborative Forest Landscape 
Restoration Program, the Watershed Condition Framework, the 2012 
Planning Rule, and other restoration-related programs and initiatives 
to increase the pace of ecological restoration while creating more jobs 
in rural communities.
    USFS is supporting accelerated restoration through our programs in 
Research and Development. We have seven high-priority research areas, 
including Watershed Management and Restoration, which is designed to 
support our focus on protecting and enhancing water resources. In our 
Bioenergy and Biobased Products research area, we are developing 
technology to sustainably produce woody biomass and convert it into 
liquid fuels, chemicals, and other high-value products. In partnership 
with the wood products industry, we are also developing science to 
commercialize nanocellulosic technologies to generate new high-value 
products such as durable composites and paper that is stronger and 
lighter. This will revolutionize technology to create new jobs and 
revenues and help restore America's economy through industrial 
development and expansion.
    We are also pursuing longer term strategic research. For example, 
sustainable forest management is predicated on decades of data on 
forest conditions collected through our Forest Inventory and Analysis 
program. We conduct long-term research in such areas as forest 
disturbances, the effects of climate change, fire and fuels, invasive 
species, wildlife and fish, and resource management and use to meet 
local needs. In all of our research, we are committed to delivering new 
knowledge and technologies to support sustainable forest and grassland 
management.
              strengthening communities and providing jobs
    Our fiscal year 2014 budget request emphasizes the role that 
communities play in sustaining the forests and grasslands around them 
and the benefits they provide. Working with State and local partners, 
we are focusing on landscape-scale outcomes through cross-boundary 
actions including forestry projects identified through the State Forest 
Action Plans. Accordingly, we propose building on our State and Private 
Forestry Deputy Area Redesign initiative through a new program called 
Landscape Scale Restoration. Our new program will capitalize on the 
State Forest Action Plans to target the forested areas most in need of 
restoration treatments while leveraging partner funds.
    We also work with the States through our Forest Legacy Program to 
identify forests critical for wildlife habitat and rural jobs. Through 
the program, we provide working forests with permanent protection by 
purchasing conservation easements from willing private landowners.
    In a similar vein, and supporting the President's America's Great 
Outdoors Initiative, our Land Acquisition program is designed to 
protect critical ecosystems and prevent habitat fragmentation by 
acquiring inholdings on the National Forest System and other lands 
where we can improve public access. We are working in collaboration 
with the Department of the Interior to leverage our joint investments 
by coordinating our efforts to protect intact, functioning ecosystems 
across entire landscapes. We propose transferring $177 million in 
discretionary and mandatory funding from the Land and Water 
Conservation Fund to support these goals.
    The Forest Service also engages urban communities in protecting and 
restoring America's 100 million acres of urban and community forests. 
For example, we are working with 10 other Federal agencies in the Urban 
Waters Federal Partnership, designed to restore watersheds in urban 
areas. Through our Urban and Community Forestry program, we are 
benefiting communities by helping them to plant trees, especially 
through demonstration projects. Through our Conservation Education 
programs, we are engaging millions of children and their families in 
outdoor experiences.
    In addition, we are helping communities acquire local landscapes 
for public recreation and watershed benefits through our Community 
Forestry and Open Space program. Our goal is to help create a Nation of 
citizen stewards committed to restoring the forests around them to 
health.
    Our community focus supports the President's America's Great 
Outdoors Initiative to achieve landscape-scale restoration objectives, 
connect more people to the outdoors, and support opportunities for 
outdoor recreation while providing jobs and income for rural 
communities. Building on existing partnerships, establishing a 21st 
century Conservation Corps will help us to increase the number of work 
and training opportunities for young people and veterans through high-
priority conservation and restoration work on public lands. To engage 
communities in conserving the lands around them, the Forest Service is 
building public-private partnerships that leverage new resources to 
support USFS's restoration goals. Our new Restoration Partnerships 
program features national competitive grants to support local 
restoration projects, with matching funds from partners.
    We are also building public-private partnerships through our 
Sustainable Recreation Framework. Many economic opportunities and other 
community benefits generated on the national forests and grasslands are 
associated with outdoor recreation. Through the Sustainable Recreation 
Framework, we are engaging communities to protect and increase 
recreational access as well as jobs, benefits, and opportunities 
associated with outdoor recreation.
    Our associated Trails program designates trails for multiple uses, 
consistent with our travel management rule, while building partnerships 
in trail stewardship. Our Roads program is designed to maintain forest 
roads and bridges to protect public safety and water quality while 
meeting access needs for both resource stewardship and the recreating 
public. Our Facilities program promotes the safe and energy-efficient 
use of agency infrastructure while emphasizing cost-effectiveness and a 
smaller environmental footprint through the use of green building 
techniques and materials.
                        managing wildland fires
    Our restoration efforts are partly in response to growing fire 
season severity, one of the greatest challenges facing the Forest 
Service. We continue to suppress in initial attack at very small sizes 
up to 98 percent of the fires we fight. However, the few fires that 
escape initial attack tend to get much larger much faster. Extreme fire 
behavior has become far more common. Firefighters are largely limited 
to protecting certain points around homes and communities.
    In 2009, the Congress passed the Federal Land Assistance, 
Management, and Enhancement (FLAME) Act, calling on Federal land 
managers to develop a joint wildland fire management strategy. Working 
with the Department of the Interior, USFS took the opportunity to 
involve the entire wildland fire community in developing a joint long-
term National Cohesive Wildland Fire Management Strategy.
    This strategy is the product of a collaborative effort between 
wildland fire organizations, land managers, and policy making officials 
representing Federal, State, and local governments; Tribal interests; 
and nongovernmental organizations that builds on the successes of the 
National Fire Plan and other foundational documents. Phase I was 
completed in 2011 and outlines the national strategy to address 
wildland fire issues across the Nation. Phase II was completed in 2012 
and provides a risk based framework for evaluating local, regional, and 
national alternatives for wildfire response and preparedness at a mix 
of different temporal and geographic scales.
    Our new strategy has three components:
  --Restoring Fire-Adapted Ecosystems.--More than 1,000 postfire 
        assessments show that fuels and forest health treatments are 
        effective in reducing wildfire severity. Accordingly, our fuels 
        treatments have grown; from 2001 to 2011, USFS treated about 
        27.6 million acres, an area larger than Virginia. We focus our 
        treatments on high-priority areas in the wildland/urban 
        interface, particularly near communities that are taking steps 
        to become safer from wildfire, such as adopting the national 
        Firewise program or developing community wildfire protection 
        plans.
  --Building fire-adapted human communities.--With more than 70,000 
        communities at risk from wildfire, USFS is working through 
        cross-jurisdictional partnerships to help communities become 
        safer from wildfires, for example by developing community 
        wildfire protection plans. Through the Firewise program, the 
        number of designated Firewise communities--communities able to 
        survive a wildfire without outside intervention--rose from 400 
        in 2008 to more than 700 in 2012.
  --Responding appropriately to wildfire.--Most of America's landscapes 
        are adapted to fire; wildland fire plays a natural and 
        beneficial role in many forest types. Where suppression is 
        needed to protect homes and property, we focus on deploying the 
        right resources in the right place at the right time. Using 
        decision support tools, fire managers are making risk-based 
        assessments to decide when and where to suppress a fire--and 
        when and where to use fire to achieve management goals for 
        long-term ecosystem health and resilience.
    Hazardous fuels reduction is an important part of protecting 
communities and infrastructure in the wildland/urban interface, and the 
materials removed can often be utilized as biofuels. Our Hazardous 
Fuels program therefore supports grants and other forms of assistance 
for wood-to-energy initiatives. We fund business plans and feasibility 
studies that help make a project more competitive for other sources of 
funding; we provide technical assistance to support project development 
or improve air quality, and we help develop financially viable 
approaches for building and sustaining facilities that convert wood to 
energy.
    In fiscal year 2014, USFS will work with municipal water providers 
and electrical service utilities to leverage our funds for fuels and 
forest health treatments. For example, our new Restoration Partnerships 
program will support public-private partnerships for investing in 
projects to protect water supplies on the Colorado Front Range and 
elsewhere. Our Hazardous Fuels program complements activities conducted 
through Integrated Resource Restoration and the Collaborative Forest 
Landscape Restoration Program to reduce fuels, protect communities, and 
restore forested landscapes. Contracted services for fuels reduction 
provides jobs, as do the forest products and woody biomass utilization 
activities that result from fuels reduction and removal.
    Our budget request for fiscal year 2014, taking the Suppression and 
FLAME line items together, fully covers the 10-year rolling average of 
annual amounts spent on suppression. Taken together with the 
Preparedness line item, our budget request reflects our emphasis on 
assessing strategic risks and improving operational decisionmaking for 
responding to wildland fires, including using fire, where appropriate, 
for resource benefits. Our efforts are expected to result in more 
effective and efficient use of Forest Service resources as well as the 
resources of our partners.
    Airtankers are a critical part of an appropriate response to 
wildfire, but USFS's fleet of large airtankers is old, with an average 
age of more than 50 years. The cost of maintaining them is growing, as 
are the risks associated with using them. USFS is implementing a Large 
Airtanker Modernization Strategy to replace our aging fleet with next-
generation airtankers. Our fiscal year 2014 budget request includes $50 
million to pay for the increased costs of modernizing the firefighting 
airtanker fleet. This is in addition to the $24 million requested in 
the fiscal year 2013 budget for a total of $74 million proposed over 
the last 2 years to further enhance the agency's ability to fight 
wildland fire.
                              cost savings
    Since 2011, USFS has conducted more than a thousand postfire 
assessments in areas where wildfires burned into previously treated 
sites. In 94 percent of the cases, our fuels and forest health 
treatments were determined to have changed fire behavior and/or helped 
firefighters control the fire.
    The Forest Service is also taking steps in other areas to cut our 
operating costs. For example:
  --Taking advantage of new technologies, we have streamlined and 
        centralized our financial, information technology, and human 
        resources operations to gain efficiencies and reduce costs. We 
        will continue to work together with other USDA agencies under 
        the Blueprint for Stronger Services to develop strategies for 
        key business areas to provide efficiencies.
  --For the same reasons, we have integrated work across our deputy 
        areas for National Forest System, State and Private Forestry, 
        and Research and Development. For example, all three deputy 
        areas have collaborated to develop the Southern Forest Futures 
        project--the first comprehensive analysis of the future of 
        Southern forests over the next 50 years.
  --In fiscal year 2012, we began implementing a new Planning Rule that 
        will reduce the length of time it takes to revise management 
        plans, saving costs. We are also saving costs by streamlining 
        our environmental review process under the National 
        Environmental Policy Act.
  --We are implementing measures to achieve $100 million in cost pool 
        savings in fiscal year 2013 and fiscal year 2014 combined.
  --We have adopted new public-private partnership strategies for 
        leveraging restoration funding. For example, over 10 years the 
        Collaborative Forest Landscape Restoration Program is expected 
        to leverage $152.3 million in partner funding, about 62 cents 
        for every Federal dollar spent.
  --We also signed an agreement to use municipal funds to restore fire-
        damaged national forest land in the municipal watershed of 
        Denver, Colorado. Over 5 years, Denver Water is matching the 
        Forest Service's own $16.5 million investment in watershed 
        restoration. We have signed similar agreements with Santa Fe, 
        New Mexico, and with other cities on the Front Range in 
        Colorado, including Aurora and Colorado Springs.
  --We are proposing a number of changes in our budget line items for 
        fiscal year 2014 to better integrate accomplishments, to 
        increase efficiencies in administration, and to make our 
        program delivery more transparent. For example, combing the 
        State and Volunteer Fire Assistance programs under Wildland 
        Fire Management will improve program management, reduce 
        administrative complexity, and will assist with improved 
        performance management.
  --In accordance with sustainability and efficiency mandates, we are 
        working to reduce our environmental footprint. We are acquiring 
        more energy-efficient vehicles and using the latest 
        technologies to reduce our greenhouse gas emissions and cut our 
        electricity and natural gas costs at facilities.
                             future outlook
    Our budget request focuses accordingly on America's highest 
priorities for restoring ecosystems, strengthening communities and 
providing jobs, and managing wildland fire. We are developing a kind of 
land and resource management that efficiently and effectively addresses 
the growing extent and magnitude of the challenges we face, as well as 
the mix of values and benefits that Americans expect from their forests 
and grasslands. We will continue to lead the way in improving our 
administrative operations for greater efficiency and effectiveness in 
mission delivery. Our research will continue to solve complex problems 
by creating innovative science and technology for the protection, 
sustainable management, and use of all forests, both public and 
private, for the benefit of the American people. Moreover, we are 
working ever more effectively to optimize our response to cross-cutting 
issues by integrating our programs and activities.
    The key to future success is to work through partnerships and 
collaboration. Our budget priorities highlight the need to strengthen 
service through cooperation, collaboration, and public-private 
partnerships that leverage our investments to reach shared goals. 
Through this approach, we can accomplish more work while also providing 
more benefits for all Americans, for the sake of generations to come. 
This concludes my testimony, Mr. Chairman. I would be happy to answer 
any questions that you or the subcommittee members have for me.

    Senator Reed. Thank you very much, Chief.
    Senator Udall has joined us. Tom, we've offered everybody a 
chance to say a minute or so if you want to make a comment.
    Senator Udall. I first just want to wish our ranking member 
happy birthday. I know she was just out in the hall. Her two 
sons were calling her from Alaska. They were out on a boat. And 
so we're very happy that she's here with us today.

                          SECURE RURAL SCHOOLS

    And just briefly just to mention, Chief, Secure Rural 
Schools. I know Senator Murkowski is probably going to focus on 
this, too. But I'm just very worried about the funding in our 
rural communities. And as you realize, in the Southwest we're 
concerned about the state of the environment, the ecosystems, 
and what's happening with those schools.
    I think you've seen a number of letters from Governors and 
many participant State land commissioners, and others trying to 
urge you to find a way, and let's try to make sure that in our 
rural counties we're able to keep the schools there.
    So with that, thank you very much, and really appreciate 
being here today.
    Senator Reed. Thank you, Senator.

                        WILDLAND FIRE MANAGEMENT

    All right. Chief, as we mentioned, the fire budget seems to 
drive everything that you do or don't do. At this point, can 
you give us sort of a sense of, will we have another record 
fire year? We've already had some activity in southern 
California. Should we be anticipating another year? And which 
leads to the question of, if every year is a record year, then 
we've got to sort of recalibrate and think of different ways to 
fund these programs.
    Mr. Tidwell. Mr. Chairman, we've been fortunate to have a 
slow start to this fire season because of the moisture we're 
receiving in the Eastern part of the country. Our predictive 
services once again show that we are set up to have another 
very active fire season, especially throughout the West, 
California, Oregon, and Washington then moving into Idaho and 
Montana.
    So based on those predictions, we're anticipating a fire 
season similar to last year's.
    Senator Reed. Which is a significant cost to the 
Government, and we could in fact run over the program's 
budgeted allocation. Then again, to get into that situation, 
we'll need extra money?
    Mr. Tidwell. That's correct. Unless we are fortunate to 
have just a very light fire season this year, even with a 
moderate fire season, the expenses will exceed what we 
currently have in the budget for this year.
    Senator Reed. Well, again, I think both the ranking members 
are concerned, and we have to come up with a mechanism. In the 
past, as I indicated, there was emergency funding available to 
cover true emergencies like this. We have to be thoughtful and 
creative. And we'll be working with you on that.

                               AIRTANKERS

    One of the major capital programs you have, obviously, is 
your air fleet. You are now starting the next generation of 
tankers in terms of your making them available. Also, in the 
National Defense Authorization Act, the Air Force was given 
permission to transfer seven C-27Js to you.
    Can you give us an overview of where things stand with 
respect to the aviation fleet? Will you have adequate aircraft 
this fire season? Also, longer-term plans in terms of the 
fleet, including your acceptance or rejection of the Air Force 
aircraft.
    Mr. Tidwell. We will have an adequate airtanker fleet this 
year, anticipating between 24 and 26 planes will be available. 
We currently have nine aircraft under what we call our legacy 
aircraft, which is seven P2s, plus two BAE-14As that are 
currently on contract.
    We are in the process of awarding contracts for seven more 
aircraft, what we call our next-generation, which is the 
faster, the planes that we're trying to move forward to carry 
larger payloads. In addition to that, we continue to work with 
the Air Force and Air Force Reserve to make sure that the 
modular airborne firefighting system (MAFFS) units, the C-130Js 
and Hs are available again this year as a backup. We've also 
taken steps to be able to work with Alaska and Canada to bring 
down their Convair 580s if we need those aircraft.
    So based on everything we're moving forward with this year, 
I feel confident we will have a set of aircraft that we can 
respond.
    In addition, we are anxious to see what the Air Force, the 
decision that they make, if the C-27Js are surplused and they 
become available. We would definitely like to have seven more 
of those aircraft to be part of our overall fleet. They would 
be Government owned, but contractor operated. We're moving 
forward to actually look at what it would take for our MAFFS 
units and modify those so that they can fit into the C-27Js so 
if those planes become available we'll be able to move as 
quickly as we can to build those MAFFS units for those C-27Js.
    Senator Reed. Just two quick follow-up questions in this 
regard. One is, the next-generation contracting process is 
still not completed. Are you confident that you'll have these 
aircraft under contract and useful this fire season?
    Mr. Tidwell. Mr. Chairman, we're working through the 
process of the contract for the next generation. We have 
received a protest, and we will work through that protest. I do 
have the authority to override the protest. As we go through 
the process, I'll make that determination to ensure we have the 
aircraft we need to be able to respond to fires this year.
    Senator Reed. Let me ask again a related question. And that 
is that the next-generation funding level, in last year's 
budget it was $24 million. In this year's budget, it's $50 
million. But that begs the question, What's the overall amount 
of money that you feel you have to commit to get this next 
generation of aircraft in service?
    And then with respect to the C-27J, have the costs of 
modifications been built into any budget yet? Because I would 
presume that's not going to be a trivial cost, at least 
initially.
    Mr. Tidwell. Mr. Chairman, that $50 million that we have 
requested would help offset the additional cost for the next-
generation aircraft, plus the additional cost for the legacy 
aircraft. The legacy aircraft with the new contract, the 
expenses have gone up, as expected. It also would help us deal 
with the cancellation charges that we have to have set up in 
our budget.
    As far as the C-27Js, if those become available, we would 
probably then use part of this $50 million to be able to do the 
work we'd have to do on those to be able to fly with our 
mission. We estimate for the C-27Js, it would cost about $3 
million per aircraft to build the MAFFS units and then to make 
some changes on that aircraft to make them usable for our 
mission and take some of the military equipment, some of the 
armor, off of those aircraft that's no longer needed for our 
mission.
    Senator Reed. Thank you, Chief.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                          SECURE RURAL SCHOOLS

    Chief, let's talk a little bit about where we are with 
Secure Rural Schools. I indicated that as far as I know, the 
Governor has not yet received a response to his letter. I 
received your response on Monday the 20th. And in your 
response, you provide the agency's rationale for why you 
believe the sequester applies to the Secure Rural Schools 
payments.
    But putting aside the legal arguments, the letter indicates 
that you made these payments in January, but the sequester was 
going to be the law of the land on March 1, or you certainly 
should have had every reason to anticipate that it would be.
    Did you analyze the impact of whether or not the sequester 
would apply to these payments before you sent them out? I'm 
having a real difficult time trying to just justify how 
communities that have for decades now received these payments 
from the Government now receive the payment, and then they get 
the letter in the mail saying, ``We want it back.'' It just 
doesn't work.
    So what kind of consideration was made before you sent out 
these payments? We know that the Department of the Interior 
withheld funds prior to sending out their Secure Rural Schools 
payments. They did it one way; you did it another. What was the 
rationale there?
    Mr. Tidwell. Senator, my rationale was based on two things. 
The first is at that time, and it was actually in December when 
we made the decision to issue those payments, I thought at that 
time there would be some options that would be found for the 
sequester and it wouldn't happen.
    Second of all, I was still having ongoing discussions with 
our legal staff as to if the sequester would apply to the 
Secure Rural Schools payments. I personally had some questions 
on that. After a couple of meetings, the attorneys convinced me 
that they would apply.
    The other thing that drove that decision is what you've 
mentioned. I know these communities, these counties, they rely 
on these funds for their schools and roads programs. So I had 
to make a call either to hold that money back or send it out. 
Based on my personal experience living in those communities, I 
made the call to go ahead and send it out, with an 
understanding also, with the title II funds that many of the 
States receive, which are funds that actually just go to 
project work on the National Forest, that we'd be able to use 
that money to be able to offset the sequestered amounts so that 
there wouldn't be an impact to community schools and roads 
programs.
    That's the option that we've provided the States, to do 
what we can to minimize the impact on schools and roads, 
realizing that those title II funds, they're also important, 
because it creates jobs, it gets work done.
    So, Senator, I regret the situation that we're in. When I 
think back through it, probably it would have been better to 
hold back maybe 5 percent at the very start instead of being in 
a situation where most of the States have the option to use 
title II or take it out of their schools and roads fund. But 
that's where we are. I regret that we've had to do this.
    Senator Murkowski. If the State of Alaska and Alabama and 
Wyoming refuse to pay, as the Governor's letter certainly 
suggests, I mean, what do you do? Are you going to, do you sue 
them for it? In your letter, it looks to me like you're kind of 
taking late fees and penalties off the table, which is a darn 
good thing, because you'd really have a fight on your hands 
there.
    Mr. Tidwell. I understand.
    Senator Murkowski. Your words are a little bit wiggly here 
in terms of being able to waive costs where applicable. I would 
certainly hope that at a bare minimum there is no effort to 
collect late fees and penalties.
    And quite honestly, trying to sue the States, too, to 
collect the monies I don't think is a good option either. So 
again, we need to figure out how, you need to figure out, 
working with us, how we deal with this.
    Let me ask a more, perhaps even more local issue than 
Secure Rural Schools. In the energy committee, when we visited 
last time, we had a lot of discussion about the USFS mandate of 
multiple use. We all recognize that it's all multiple use. And 
in that hearing, you suggested that some of what we need to 
look to in the Tongass is the recreational activities, the 
tourism activities.

                                TOURISM

    And I agree. And it wasn't more than a week later from that 
hearing that I was in Ketchikan and sat down with a group of 
about a dozen air taxi operators that are fit to be tied. 
Because here they are trying to provide for a level of tourism 
within the Misty Fjords and Traitors Cove. They take their 
little floatplanes. Everyone wants to see the wilderness area. 
They get, the air taxi operators get permits to just land in 
these lakes, just land. Not go on the land, but just land.
    And what the air taxi operators are telling me is that 
their permits coming from the USFS are being cut by some as 
little as 20 percent, some as much as 40 to 45 percent. One air 
taxi company has seen its permits cut from 300 to 165, another 
one from 500 to 298. When you're to provide for a level of 
tourism, when you can't take the tourists who are coming off 
the cruise ship out to do a quick floatplane trip, land in one 
of the lakes in Misty Fjords or Traitors Cove, it's kind of 
tough.
    So I called Forrest Cole and talked with him. He was going 
to be meeting with everybody. And that's to be applauded. But I 
guess I'm trying to figure out, you're telling me on the one 
hand, ``Tell the people who live in the Tongass to move toward 
tourism, utilize the forest in that way.'' And then your agency 
is limiting, dramatically limiting their ability to provide for 
those tourism opportunities.
    So can you explain to me what it is that we're going to do 
in that particular situation in one community in Southeast?
    Mr. Tidwell. Well, Senator, I don't have all the details 
into the forest decision, but it's my understanding that they 
reduced some of the flights based on the concern from the 
public with the amount of noise that was created from the 
floatplanes, and at the same time increased the number of 
permits into Traitors Cove.
    I will follow up with the forest and find out more 
specifics as to why the decision was being made, and then also 
what they're doing to actually mitigate. If it's something as 
just the noise, is there a way that they could land in a 
different place, maybe at a different time, but other ways to 
be able to deal with the concern from the public?
    [The information follows:]
            Air Taxi Service on the Tongass National Forest
    Due to concerns that limiting the amount and location of outfitter 
and guide use may not adequately provide for industry stability and 
growth, the Record of Decision for the Ketchikan-Misty Fjords Outfitter 
and Guide Management Plan allocated 53,997 service days annually to 
outfitters and guides. The highest actual use reported by outfitters 
and guides between 2005 and 2009 was 24,245 service days. Thus, the 
decision allows outfitter and guide use across the Ketchikan-Misty 
Fjords District to increase over 100 percent from the reported highest 
use levels.
    The Forest Service also met with commercial air service providers 
on May 6, 2013 in Ketchikan, Alaska to discuss the issues you have 
raised, to explain what was in the actual decision, and to discuss the 
new permit allocations. At the conclusion of the meeting, the Forest 
Service committed to meet again with the air service providers at the 
end of the season to review actual use versus permitted use. The 
Ketchikan-Misty Outfitter and Guide Management Plan includes an 
adaptive management strategy to allow changes to be made if experience 
shows they are needed.
    Accordingly, by doubling the outfitter guide use across the 
District, and by incorporating a flexible adaptive management strategy 
to incorporate changes as needed in the future, the Ketchikan-Misty 
Fjords Outfitter and Guide Management Plan will facilitate growth of 
the industry while maintaining quality visitor experiences.
    The Forest Service does not have reliable information about 
unguided visitor use numbers for Misty Fjords. Most unguided visitors 
access Misty Fjords National Monument Wilderness via motorized boat or 
sea kayak. Many of these visits are by local residents via privately 
owned boats. There is no practical way to know how many such visits are 
made.
    The Forest Service has always been concerned about the economic 
health of rural communities throughout Southeast Alaska. The Alaska 
Region has made significant investment in a wide variety of resource 
areas to expand business opportunities across the Tongass. In this 
particular case, the Tongass National Forest limited the amount of 
outfitter guide use in one area to maintain its wilderness character 
and quality visitor experiences, while allowing for growth in other 
areas of the Ketchikan Misty Ranger District.

    Senator Murkowski. Well, this would be one opportunity for 
you to view for yourself. When you live in a place like 
Ketchikan that is on the water, you've got a lot of 
floatplanes. That's just the nature of the business. And how we 
provide for recreational tourism operations in a place like the 
Tongass, you've got to be flying.
    Mr. Tidwell. Yes.
    Senator Murkowski. So, let's work on this.
    Senator Reed. Thank you very much.
    We will have a second round, just for the information of 
the members. My list has Senator Merkley as the first to 
arrive.

                        STEWARDSHIP CONTRACTING

    Senator Merkley. Thank you very much, Mr. Chair. And thank 
you for your testimony.
    I first wanted to ask about, we have a mill in John Day 
that has been at high risk of closing. And the regional 
forester has been working very hard to lay out a 10-year 
stewardship contract to ensure accessible supplies so that 
essentially the infrastructure in the plant can be renovated, 
be competitive, and that the mill knows it's going to be able 
to access wood for long enough to make that work. Otherwise, 
the mill shuts down. And we were this close, and I'm afraid 
we're this close today.
    Last week, the regional forester got a letter from Leslie 
Weldon. It said, ``We can't figure it out. We can't do it.'' It 
notes that we'll work to design a new contracting structure. My 
concern is that it's been 6 months in which a new contracting 
structure could have been identified. We could be wrestling 
with that now if it didn't take legal changes, which it doesn't 
appear it will take, from this letter. It could be in place 
now.
    We don't want to lose this mill. Last month we lost the 
mill in Cave Junction, the Rough & Ready mill. It is the heart 
of the economy in that small town. This is the heart of the 
economy in John Day.
    How can--what can we do to create the sense of urgency 
about designing the necessary structures so we don't lose this 
mill?
    Mr. Tidwell. Senator, of course we share your concern about 
that mill for the community, the jobs, but also to have the 
facility to be able to do the restoration work on the National 
Forest.
    Since our staff sent that letter out, I personally have 
taken another look at this to see if there isn't some other 
options that we can do prior to getting stewardship contracting 
reauthorized. I'm optimistic that there's a different approach 
that we can take, that we're working currently with the region 
and forest on, to be able to move forward with a 10-year 
stewardship contract.
    I have to stress, though, that without reauthorization of 
stewardship contracting, it is really--well, it will be the end 
of the program, the program that has provided a lot of 
certainty, that gives us this kind of flexibility to do these 
long-term contracts. And it's one of the reasons why it becomes 
one of our highest priorities this year to be able to get that 
reauthorized.
    So I will get back with you as soon as we have finalized 
our approach that we're going to take. But I'm confident that 
we'll be able to find a different way to be able to move 
forward.
    [The information follows:]
                          Stewardship Contract
    The Malheur National Forest is preparing a 10-year Integrated 
Resource Service Contract (IRSC), Indefinite Delivery, and Indefinite 
Quantity (IDIQ) to provide timber volume and service work. This 
contract should be available for companies to bid on this summer. The 
contract will provide a major share of the Malheur's program for the 
next 10 years.

    Senator Merkley. Thank you. And are you satisfied with the 
stewardship contracting reauthorization as structured in the 
Senate farm bill?
    Mr. Tidwell. Yes.
    Senator Merkley. Okay. So we anticipate getting that done, 
and hopefully, we'll get it arranged through the House.
    Mr. Tidwell. Thank you.
    Senator Merkley. And I appreciate that you've taken special 
attention, personal attention to this issue.
    We have other situations where 10-year contracts will 
either make or break whether or not there is a biomass plant 
established, which means the difference between basically 
utilizing some of the forest woody mass versus having it burned 
on the floor of the forest.
    It makes a lot of sense to try to make these things work, 
but there has to be a framework in what has been a very 
uncertain world that provides much more certainty. I know you 
understand. But thank you for your personal attention on it.

                    LAND AND WATER CONSERVATION FUND

    I wanted to turn to the LWCF and Forest Legacy. And I 
really appreciate the administration's support for the LWCF. 
And I was especially pleased to see the top-ranked project in 
the country was Gilchrist Forest in Oregon.
    We were anticipating that there was a chance that the 
Gilchrist Forest and the Blue Mountains Forest Legacy could be 
funded in fiscal year 2013. And I think we're still waiting for 
announcements. I think we thought those were coming out in 
April. Are those on the--are we likely to hear on some of these 
projects fairly soon?
    Mr. Tidwell. Yes. We should be able to get to you, I think, 
within the next week.
    [The information follows:]
                      LWCF Gilchrist Forest Update
    Currently the project is held by The Conservation Fund. This was 
done at the request of the State and is in compliance with Forest 
Service Program Implementation Guidelines. The project will add nearly 
26,000 acres to the 42,000 acre Gilchrist State Forest. The Gilchrist 
State Forest is the newest State forest in Oregon and was acquired with 
$15 million of State funding. This project is important not only 
because of its contribution to the local forest products industry, but 
also for recreation and preventing conversion from open space, which 
will reduce fire risk and suppression costs. The State goal is to close 
on the Gilchrist land acquisition in this calendar year, though that 
may be closer to early in the following year to allow for the required 
due diligence actions for acquisitions funded by the Forest Legacy 
Program.

    Senator Merkley. Thank you. And I do appreciate the 
advocacy for funding. This has been a key, key set of programs.

                            HAZARDOUS FUELS

    I wanted to turn to the issue of hazardous fuels reduction. 
The frustration of fighting these forests on the back end is 
just enormous. And after the fires last summer, everyone, 
whether it be inside the USFS, with the private landowners, 
with our local electeds, the scientists said, ``We've got to do 
more on the front end. We've interrupted the natural fires of 
the past that were smaller fires that cleaned out this 
debris.''
    And so it comes as a shock to us to see that that funding 
was cut by, I think, $116 million. I fought hard for us to get 
funding to replace the surplus funds that were going to be 
diverted into fighting the fires, which I realize the huge 
challenge; you've got to fight fires when they occur. But how 
do we responsibly address forest health if we can't have a 
robust fuels reduction program on the front end?
    Mr. Tidwell. Well, Senator, that reduction in the hazardous 
fuels funding in our request is just part of the difficult 
tradeoffs we have to make. When we have to continue to put so 
much more of our budget into suppression and also in 
preparedness, there has to be changes made in reductions.
    With the funding that we are requesting, we'll focus on the 
wildland-urban interface with the hazardous fuels reduction. 
And then in the backcountry, or outside of, away from the 
communities, when we do our restoration work, when we do our 
timber harvest, our timber thinning, we're also reducing 
hazardous fuels. And so we'll be accomplishing that hazardous 
fuels reduction through our integrated resource restoration 
work, through our timber sales.
    But there's just no question with that level of reduction, 
there's going to be less fuels work done, there's going to be 
less hazardous fuels accomplished.
    Senator Merkley. Well, I'll keep talking with you about it, 
because I realize there's no easy answer. But with the changing 
or the more extensive droughts, we're going to see that this 
problem of accumulated fuels becomes of more and more dreaded 
effect. And somehow we have to figure it out. Thank you.
    Senator Reed. Thank you very much.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. Yeah, we've got to 
break the cycle. We're spending money on fighting fires when it 
would be much better to cut some wood and get us a permanent 
supply. We'll get into forest jobs maybe later.

                               AIRTANKERS

    First I want to talk about airtankers, next-generation 
airtankers. As we well know, there's an intent to award 
contracts for seven of them. Fire season has already started in 
Montana and across the West, quite frankly. And while my staff 
was initially told that these planes would be ready to fly, I'm 
talking about the ones that were the seven that were 
contracted, awards were given. Well, my staff was initially 
told that these would be ready to fly this fire season.
    We've received conflicting information from--even before 
the protests. And so I understand there might be some actions 
you can take to resolve this. But I have larger concerns 
regarding how these competitions are being run. You and I have 
known each other for a long time. You've been up front with me. 
I'm going to be up front with you.
    After two protested competitions, I have serious questions 
as to whether the USFS is getting the best value for the 
dollar. So, Chief, can you tell me when these planes will be 
ready? I'm talking about the seven that the contracts have been 
awarded for.
    Mr. Tidwell. Senator, once we work through the protests and 
we actually award the contracts, it's our expectation that 
those contractors that have the new contract awards will have 
their planes ready to go within 60 days for testing.
    Senator Tester. Okay, how about, that's for testing. Does 
that mean--okay, 60 days. We're middle of May, June, July. I 
hope we're not, but chances are, you know well, there's going 
to be a lot of smoke in here by the middle of July. Will the 
planes, they're ready for testing in 2 months. Are they going 
to be ready to fly in 2 months?
    Mr. Tidwell. Well, it's our expectation that after they 
complete the tests, they will be able to fly. The aircraft that 
are being considered, they are all FAA certified already. So 
there isn't a problem we have to deal with. So it's just to get 
their tanking systems and then to be able to meet our 
performance tests. And they'll be able to fly.
    Senator Tester. Yes, thank you, Chief. Can you tell me if 
that was taken into consideration as far as the contracting, 
whether--how quickly the planes could be up in the air? Because 
quite frankly, I really hate to say this, but you know very 
well we'll either be flooded out in June or there will be fires 
in June. There's going to be no happy medium here.
    Mr. Tidwell. It was factored into the decision on which 
contracts were awarded or would be awarded as to their 
capability based on what they provided, their capability to be 
able to have the aircraft that would perform to our standards 
and to be able to be operational within 60 days. There's no 
guarantee that they will be, but this is the process that we 
have to go through.
    It's why we are also setting up contingency plans to bring 
the 580s down from Canada and Alaska if we need to, and then of 
course to have the MAFFS units on ready.
    Senator Tester. Look. You're probably frustrated with it, 
too. I'm a little frustrated with this whole thing because, 
quite frankly, I've seen what's happened in Montana's forests 
for a long time now. I live in eastern Montana, 200-300 miles 
from where the forest is. And we are covered in smoke most 
summers.
    And it goes to a bigger issue that Senator Merkley was 
talking about. But if we're going to fight these fires and if 
you want to use next-generation as being the plane that's 
really going to get the job done much more efficiently and cost 
effectively, I honest to goodness can't figure out why the 
award was made how it was. That's just a dirt farmer talking. 
Because quite frankly, we haven't been able to get an answer 
from your staff as to when these planes are going to be up in 
the air, and I'm not sure I've gotten one from you as to 
whether these planes can be up in the air in 60 days.
    Mr. Tidwell. Well, Senator, that's the requirement in the 
contract, that once the contract is awarded, is that they need 
to be available to test within 60 days. That's the contract----
    Senator Tester. But if they don't pass the test, what 
happens?
    Mr. Tidwell. If they don't pass the test, then they don't 
fly. So those aircraft are not available. We have to then go 
back to the aircraft that are available, plus we can use the 
580s.
    Senator Tester. The Canadians.
    Mr. Tidwell. Plus we can use the call-when-needed.
    Senator Tester. Okay.
    Mr. Tidwell. I want to point out this is the problem.
    Senator Tester. Yes.
    Mr. Tidwell. This is one of the reasons why we've been 
asking for the C-27Js. So we at least have part of our fleet 
that is Government owned so that there is some guarantee that 
we're going to have aircraft.
    Senator Tester. Yes.
    Mr. Tidwell. So this just could have been an ongoing 
problem with these contracted aircraft.
    Senator Tester. My problem is not with the contracted 
aircraft per se. And I'm not for privatizing Government. But my 
problem is that there were better options on the table to be 
taken up by the Forest Service, from my perspective. And they 
didn't do it. And you know exactly what I'm saying in all that.
    Mr. Tidwell. We have a set of procedures that we follow 
when we award contracts. I can guarantee you there is a high 
level of oversight that is provided. Through the process of 
being able to protest, on another additional level of review, 
and so that's the process that we have to follow.
    Because of that, our folks go to great lengths to be able 
to make sure that we are making the right decision based on 
what the contractors provided us. We have to make our best 
decision.
    Senator Tester. I understand that. And I know there's going 
to be a second round. I would just say that, and I know you 
can't do anything about it because the contract has already 
been awarded--well, I guess you can. But the bottom line is 
that we need to get the biggest bang for the buck. And I'm not 
sure that, because of the fact that we don't know if these 
planes are going to be operational or not, whether we got the 
bang for the buck.
    I appreciate your service, and I don't mean to be critical. 
But I'll stick around for the second round.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator.
    Senator Begich.
    Senator Begich. Thank you very much, Chief, for being here. 
Let me just ask a quick question on Senator Tester's issue 
there. The protest has been filed, right? How long before 
that's resolved?
    Mr. Tidwell. I'm hoping that the attorneys are actually 
working today to begin the discussions to address that protest.
    Senator Begich. So, I don't mean to interrupt you. But so 
they've started the review, but the protest has an amount of 
time that the individual has, correct?
    Mr. Tidwell. Yes.
    Senator Begich. What is that time?
    Mr. Tidwell. Well, they've submitted the protest. The next 
step is for us to provide the information that both sides are 
requesting. Then eventually, it would go in front of, in this 
case, the judge.
    In the meantime, I have to look at where we're going to be, 
how much it's going to take, and make the decision whether to 
override the protest or not.
    Senator Begich. Got you.
    Mr. Tidwell. That's one of the decisions that I'm going to 
have to make here probably within the next week or so.
    Senator Begich. That's the question I was trying to get to. 
So you have about a 2-week window that you'll determine if the 
protest, in your mind, is valid? Probably not the right word, 
but that there is full merit to it? But also, you'll weigh the 
fire issue that you have to deal with this summer; is that 
correct?
    Mr. Tidwell. That's correct. I have the authority based on 
the emergency situations of having airtankers to be able to 
override the protest.
    Senator Begich. Very good. I just wanted to add that little 
context to the schedule there.

                             ROADLESS RULE

    I want to talk to you about the Roadless Rule, which of 
course you know that the Alaska delegation is totally opposed 
to on many fronts. But, and I want to say your Alaska region 
has done a good job working with us in regards to mining issues 
in trying to make sure that some of those mines can continue to 
move forward.
    We've been told and assured that the Federal Power Act will 
trump the Roadless Rule on development. So let me go to one 
area specifically. And that's the area of hydroelectric power. 
As you know, in Southeast, it is what operates.
    Mr. Tidwell. Yes.
    Senator Begich. And also important for some projects that 
are moving forward. We have heard from individual operators, as 
well as the industry group, that it's not clear how this will 
work. For example, will they be forced to use helicopter 
maintenance as an issue versus accessing it, obviously, through 
roads? Which of course, just adds huge costs to the ability to 
move power.
    I guess what I'm looking for, because there's so much 
uncertainty here, will you commit to meet with the industry 
groups to get this clarity on how hydropower can be utilized 
within the roadless areas? Two, how can we maintain a 
constructed, meaning the power itself and transmission lines 
and generation? Is that--because we keep hearing they're just 
not sure. And of course, if you start going to helicopter 
maintenance, very expensive.
    Is that something you would commit to to make sure we can 
move forward in trying to get this figured out?
    Mr. Tidwell. Senator, I will make that commitment to be 
able to bring the right folks together to have a clearer 
understanding about what we need to do to move forward to make 
sure that the proponents for these hydroelectric facilities 
understand how they're going to need to operate. So make it 
very clear. So I will make that commitment to bring the right 
people together to clarify this.
    Senator Begich. Very good. And on generation and on 
transmission?
    Mr. Tidwell. Yes.
    Senator Begich. Okay. Because, obviously, generation may be 
a piece, you know, resolvable. But if you have lines that you 
can't get to and it costs a lot of money, the project may not 
happen. And if you could give us feedback as you move forward 
on that, it would be great.

                               AIRTANKERS

    I want to just quickly follow up on the C-27s that were 
brought up by the chairman. And that is, let's assume for a 
moment DoD and the authorizing bill does it. They say they got 
seven surplus. They say, ``Here you go.'' Are you willing to 
take those, and/or are you willing--tell me what your step will 
be if those are presented to you or available to you. Are you 
willing to take those? And if the answer is yes, do you have 
within your budget resources to do the things that the chairman 
asked for? One is retrofitted in, but also to maintain them and 
operate them.
    I understand they're going to be contracted, operational, 
but owned by the feds. But can you tell me?
    Mr. Tidwell. Yes. If those seven aircraft are made 
available, we will receive those aircraft, and we'd expect that 
the earliest that would occur is toward the end of this fiscal 
year, probably in September at the earliest. Our budget request 
for fiscal year 2014 would provide us with the additional 
resources to move forward to modify those aircraft so they'd be 
available for our mission.

                          SECURE RURAL SCHOOLS

    Senator Begich. Fantastic. Let me also just associate my 
comments with Senator Murkowski in regard to the secure school 
funding issue, obviously a big concern there. But I wanted to 
get to a higher level.
    I mean, your position where you're at, and I kind of heard 
it through some of your testimony that, I mean, you're just 
getting squeezed from all ends. And you're just trying to 
figure out where to reduce the budget, and this is one of the 
areas that you looked at. And now you're kind of rethinking, 
maybe it wasn't the wisest thing to do to do it all at that 
point, giving them all the money, then trying to claw it back.
    Let's assume for a moment the sequester continues. Because 
it's a 10-year deal. It's not a 1-year deal. Are you going to 
look at this in how are you going to allow or transfer that 
money to schools and hold back any next cycle? Or what's your 
thinking now that you've gone through this experience that 
still is not over yet?
    Mr. Tidwell. The 25 percent funds will go out as collected 
for next year. If there is continuation on extension of Secure 
Rural Schools payments, we will know what we're up against 
right at the start so it will be the amount of money that will 
be made available for schools and roads so that we will not 
have this issue ever again.
    Senator Begich. Okay. And are you starting to--I'm 
assuming, I know you don't want to do it too early because 
school is still in session this session. But as you move toward 
next session, will you be working with the affected schools' 
districts to make sure they understand, if we don't resolve the 
sequester, what the impacts are going to be?
    Mr. Tidwell. We will be working through the States to be 
able to inform them what we'd expect under the 25 percent fund 
if there isn't an extension of Secure Rural Schools. If there 
is an extension that is made available, then we will also work 
with the States to share that information.

                           TIMBER MANAGEMENT

    Senator Begich. Great. Last question. Just for the record, 
maybe, if you could get to me, I'd be interested in maybe the 
last 10 or 15 years on a chart that shows on timber sales the 
amount of time it takes you from the initial stage to actual in 
production. I want to kind of see what it looks like over the 
last 10-15 years. Has it improved? Has it decreased? And if you 
wouldn't mind putting in there what your staffing levels and 
resources have been allocated to that effort corresponding to 
those years. Does that make sense?
    Mr. Tidwell. Yes.
    Senator Begich. You see where I'm driving to. I just want 
to kind of see what the connection is if there is one.
    Mr. Tidwell. Yes, Senator, we can provide you that. It's 
the information that supports what I've already shared about 
the 49 percent reduction in staffing over the last 14 years, 
but at the same time a reduction in our unit costs by 23 
percent. We'll also show basically the average amount of time 
it takes from when we initiate a project to when we actually 
sell the contract.
    [The information follows:]
  History of Timber Sales and Timeframes From Beginning to Production
    The following are estimated timeframes for the various parts of the 
timber sale preparation process. The first step (Gate 1) is developing 
a project proposal. This typically will take 1 week to 1 year depending 
on the size and complexity of the project. The next step (Gate 2) is 
project analysis and design. This second step is when NEPA analysis is 
completed. This is the longest timeframe and varies based on the size 
of the area and the complexity of the proposal; it can range from 6 
months to 2 plus years. This excludes the appeal and litigation 
processes if they occur. The third step (Gate 3) involves marking the 
areas on the ground, measurements, contract preparation, and appraisal. 
It varies from 3 months to 1\1/2\ years, depending on the size and 
complexity of the project. The sale package, bid opening and sale award 
(Gates 4, 5, and 6) vary from 2 months to 6 months. Altogether the 
process can range from 1 year on a very simple, small sale to 5 years 
for a large complex project. There is also variation in the timeframes 
in different regions of the country. Our perspective is that these time 
periods have not changed much, if at all, over the past decade.
    The history of timber sales for the past 15 years is provided in 
the table below.

                         [In million board feet]
------------------------------------------------------------------------
                  Year                    Volume Offered    Volume Sold
------------------------------------------------------------------------
1998....................................           3,415           2,955
1999....................................           2,300           2,200
2000....................................           1,714           1,745
2001....................................           2,015           1,534
2002....................................           1,785           1,621
2003....................................           2,070           1,638
2004....................................           2,467           2,164
2005....................................           2,531           2,400
2006....................................           2,639           2,863
2007....................................           2,731           2,499
2008....................................           2,830           2,484
2009....................................           2,508           2,227
2010....................................           2,671           2,592
2011....................................           2,579           2,533
2012....................................           2,616           2,644
2013 est \1\............................           2,800           2,800
2014 est \1\............................           2,380           2,380
------------------------------------------------------------------------
\1\ Sold value was estimate based on calculated 2012 unit value.

                          timber staff levels
    The table below shows staff levels for the years 1998 to 2012. 
These numbers include FTEs from the Forest Products budget line item 
and the Timber Salvage Sales and Cooperative Work Knutson-Vandenburg 
funds.

                       TIMBER PROGRAM STAFF LEVELS
------------------------------------------------------------------------
                        Fiscal Year                              FTE
------------------------------------------------------------------------
1998.......................................................        6,453
1999.......................................................        4,065
2000.......................................................        3,445
2001.......................................................        3,342
2002.......................................................        4,659
2003.......................................................        3,822
2004.......................................................        4,128
2005.......................................................        4,054
2006.......................................................        3,268
2007.......................................................        3,792
2008.......................................................        3,210
2009.......................................................        3,263
2010.......................................................        3,101
2011.......................................................        3,027
2012.......................................................        3,282
                                                            ------------
Percent change 1998 to 2012................................           49
------------------------------------------------------------------------


    Senator Begich. That would be great. I'd love to see that. 
I think the window is 10-year--I think you used 1998 as your 
start point in your testimony.
    Mr. Tidwell. Yes.
    Senator Begich. So maybe take it from that point, move 
forward.
    Mr. Tidwell. Okay.
    Senator Begich. Very good. Thank you very much. Thank you, 
Mr. Chairman.
    Senator Reed. Thank you, Senator.
    Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman. And 
welcome, Chief. It's good to see you again.

                               AIRTANKERS

    At an earlier hearing of the Energy and Water Development 
Subcommittee on Appropriations, David Hayes indicated that 
California was going to have its worst drought in history this 
year. In terms of what that means, it's one water and two fire. 
We won't have the water, and we will have the fire. And that 
presents a very real problem.
    I don't want to go into all the details which have been 
discussed of the holdup in contracts, of the contracting of the 
C-27s. But I want to express to you my view that this is life 
or death to California. If we have a number of lightning 
strikes, which we can have and have had 2,000 of an afternoon 
that started 1,000 wildfires, these tankers are critical.
    I also want to take this opportunity to invite you to 
attend a summit on Lake Tahoe, where three National Forests 
sort of converge, on August 19. This is a bi-State summit with 
Nevada, Senator Reid handles it this year, and California. We 
alternate years when we do the summit. And we have the regional 
foresters there, which are just great.
    I think it would be very helpful for you to come out and 
see the work that they have done. And it's one of the things 
that I try to get there every year to see the trails of burning 
that's gone on, the trails that are being cleared, and some of 
the foresting that's being done. So I want to extend that 
invitation to you personally, and also if you can, to say a few 
words at the summit.
    I am really concerned by fire and would like to just urge 
you to do your utmost to get rid of those contract problems and 
move those planes, because they are going to be just vital to 
the California fire areas.

                          QUINCY LIBRARY GROUP

    As you may know, many years ago, with Wally Herger in the 
House, I proposed legislation called the Quincy Library Group. 
And this was when environmentalists and lumber people and 
others up in the northern California area got together. And 
they went to the Quincy Library because it was the only place 
they couldn't yell at each other. And they forged a plan to be 
able to prudently forest some of the forests in that area, 
particularly to mitigate fire.
    The project's authority expired in September 2012. I can't 
do a bill to renew it because it's now an earmark. But what I 
want you to know, and hope, is that you continue your 
significant fuels treatment within the 1.5 million acres of 
forestlands covered by Quincy Library Group in the next few 
years.
    Now, you'll have reduced funding. And you'll have existing 
authorities. Can you tell me a little bit about what the Forest 
Service plans to do within that 1.5 million acres?
    Mr. Tidwell. Senator, we're going to continue to build on 
the good work that you started with Quincy Library Group. And 
out of that, we've also been able to release some of our 
scientific reports that also support that type of work to 
continue in the forest, which is helping to build more and more 
support for it. So we're looking at expanding that type of 
work.
    We do have the challenges with reduced funding. But by 
looking at larger areas than we have in the past, we're finding 
greater efficiencies by doing the analysis for hundreds of 
thousands of acres at a time versus those small projects, which 
is increasing the efficiency.
    Also with the programs we have going on there in the State, 
where there's the incentives for biomass, that's also going to 
be very helpful. We want to make sure that we can demonstrate 
that the work we're doing on the forest also supports what the 
State is doing.
    Senator Feinstein. Well, I'm a strong supporter of both of 
those. And if you need help, please call. I very much fear this 
next fire system. As you know, the Santa Anas blew in May, of 
all things. And that started a huge fire. So it's really fire, 
and urging you to keep an eye particularly on California in 
this regard. And anything I can do to help, please let me know. 
I want to help.
    If you can come to Tahoe, it will be on the Nevada side, on 
August 19. I think that would be very, very helpful. You've got 
a great team up there. And they work very hard. So it would, I 
think, be very welcome.
    I thank you, Mr. Chairman. That's it for me.
    Senator Reed. Thank you very much, Senator Feinstein.

                        WILDLAND FIRE MANAGEMENT

    You know, Chief, we've been going back and forth, I think, 
very productively. But certainly the critical issue of the fire 
season, the cost of fires, whether you're prepared or not, 
aviation, ground crews, et cetera, and then I think the ranking 
member and I are very concerned because, from what you've said, 
we're probably going to meet or exceed last year's very 
expensive fire operation, which takes away from discretionary 
spending.
    And one of the things that we will pursue, and we'd like 
your support in this pursuit, is that at some point we're going 
to have to declare emergencies for these fires. Is that a 
position that you would support?
    Mr. Tidwell. Yes, I would. We need to have a better 
solution than what we've had in the past when we do have these 
very active fire seasons that go way beyond the budget that's 
been prepared for it. So I would appreciate your support there.

                      LANDSCAPE SCALE RESTORATION

    Senator Reed. Well, thank you very much, Chief. You've made 
many proposals, and let me discuss one of them. This is the 
Landscape Scale Restoration Program, which is you're trying to 
reorganize programs. Can you tell us what you would like to 
accomplish with this proposal? And how States with 
predominantly State or privately owned, not National Forests, 
but State or privately owned forests, and Rhode Island is one 
of those States, can participate and will benefit from this 
program? It seems just on the surface to be directing resources 
more exclusively to the National Forests.
    Mr. Tidwell. Mr. Chairman, this proposal is kind of built 
off of the concept of the integrated resource restoration, but 
would allow our State foresters to be able to look at their 
landscapes, their mix of private land and State lands, and be 
able to determine what type of work needs to occur on that 
landscape, instead of being focused on individual programs 
within that landscape.
    So for States like yours, with their statewide plans that 
your State foresters put together, it actually supports that 
type of an approach, to be able to look at these larger 
landscapes, to be able to do all the work that needs to be done 
versus focus in on this program on this acre, another program 
on another acre.
    So we feel that for a State like Rhode Island, it will 
actually support the work that they've been doing. It will 
also, we believe, create some more efficiencies and increase 
the overall amount of work that can be done to be able to 
support our private land forests.

                INTEGRATED RESOURCE RESTORATION PROGRAM

    Senator Reed. Well, thank you, Chief. Another proposal is 
the Integrated Resource Restoration Program. We authorized and 
provided resources for a pilot program. I know you have the 
results for 2012. Now you want to go scale up nationally, even 
though it's a 3-year pilot. Can you share with us the results, 
the findings of the first year of the pilot? Presumably, that 
influenced you in your decision to seek a nationwide program.
    Mr. Tidwell. Mr. Chairman, first of all, thank you for the 
pilot authority. Our first-year results show that in almost 
every category, we met or exceeded the targets that were set 
up. The only area where we did not meet those targets was in 
our northern region when it came to biomass timber sale 
productions. That was driven by some litigation that occurred. 
That shortfall would have occurred with or without the 
integrated resource restoration.
    With the pilot, we recognize it's going to take 2 to 3 
years for us to be able to have the information to show you 
that this is a better way. We're committed to the pilot. I'll 
keep asking for the full authority just because based on my 
previous experiences, I think it's a better approach. We're 
going to focus on doing the pilot work and then be able to come 
in here 2 to 3 years from now and make a strong case as to why 
this is a better approach.

                            LAND ACQUISITION

    Senator Reed. Thank you, Chief. My final question is that 
the land acquisition component is about $57.9 million. That's 
an increase of $5.5 million. And I think we all support land 
acquisition. You indicated in your opening statement it's a 
very smart and efficient way to conduct your operations.
    But the bulk of the money is targeted to six to eight, six 
projects where I presume that there are nationwide sort of 
demands for these funds. And can you sort of explain the 
rationale of so tightly focusing these resources rather than 
using them in a more dispersed basis?
    Mr. Tidwell. Mr. Chairman, over the years we had taken the 
approach of working the highest priority projects across the 
country without ever looking at what actually needs to get done 
in certain parts of the country. So working with the Department 
of the Interior a couple of years ago, we took a step back to 
really look at some key landscapes in the country where, by 
working together, we can complete the acquisition that needs to 
be done and actually be able to say, ``Okay, we're completed 
there,'' and then be able to move on to other parts of the 
country.
    So it helps us to be able to focus not only the funds that 
we request, but also from the Department of the Interior to be 
able to accomplish the overall goals for acquisition in that 
part of the country. So it does require a larger investment in 
any 1 year in a certain part of the country. But by doing that, 
it will allow us to complete that work and then move on to the 
next higher priority.
    At the same time, we also have a list of what we call our 
core projects that we need to move forward with that are the 
highest priority, that are time sensitive. And we're going to 
continue to be able to do both.
    Senator Reed. Just, and you might provide this for the 
record.
    [The information follows:]
                       Land Acquisition Projects
    The table below provides the status of Land Acquisition projects.

                                                                  U.S. FOREST SERVICE LWCF PROJECTS FISCAL YEAR 2013 AND BEYOND
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
 Forest                                                                  Fiscal Year 2013  Plan To Complete    Phases Complete    Proposed Fiscal Year 2014     Projected Fiscal Year 2015 and
Service         Project Name           State        National Forest       Funding Amount/   in Fiscal Year     Prior to Fiscal    President's Budget Phase   Beyond Phases in Dollars/Acres \4\;
 Region                                                                        Acres        2013/Phased \1\       Year 2013                \2\ \3\               Total Acres Upon Completion
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      1CLP Crown of the Continent  MT.......  Lolo/Flathead..........  $12,400,000.....  Phased..........  2.................  $31,000,000...............  Projected complete in fiscal year
        Northern Rockies: MT                                           4,500 acres                                             24,313 acres                 2015 with additional $5,000,000
        Legacy Completion \5\                                                                                                                               for 1,200 acres
                                                                                                                                                           Project total over 5 years = 35,700
                                                                                                                                                            acres
      1Tenderfoot                  MT.......  Lewis & Clark..........  $3,000,000......  Phased..........  3.................  $3,200,000................
                                                                       2,360 acres                                             2,280 acres
                                                                                                                               Complete
                                                                                                                               Total acres over 4 years =
                                                                                                                                8,220.
      2Ophir Valley                CO.......  Uncompahgre............  $1,000,000......  4...............  5.................  $1,470,000................
                                                                       40 acres                                                59 acres
                                                                                                                               Complete
                                                                                                                               Total acres over 5 years =
                                                                                                                                1,113.
      3Miranda Canyon              NM.......  Carson.................  $2,656,000......  Phased..........  1.................  $2,170,000................  Projected complete in fiscal year
                                                                                                                               965 acres                    2015 with additional $2,568,000
                                                                                                                                                            for 1,142 acres
                                                                                                                                                           Project total over 4 years = 5,000
                                                                                                                                                            acres
      4Salmon-Selway Initiative    ID.......  Salmon-Challis and       $340,000........  Phased..........  1.................  ..........................  Ongoing phases through 2020. Need
        Area: Morgan Ranch &                   Sawtooth National       237 acres                                                                            $8,243,000 for 908 acres
        Pardoe Rodeo Grounds                   Recreation Area.
      4CLP Crown of the            WY/ID....  Bridger-Teton/Caribou-   $3,200,000......  Phased..........  Multiple..........  $2,000,000................  Ongoing phases through 2020. Need
        Continent: Greater                     Targhee.                350 acres                                               320 acres                    additional $14,800,000 for 398
        Yellowstone                                                                                                                                         acres
                                                                                                                                                           Project total by 2020 = 18,500
                                                                                                                                                            acres
      5Hurdygurdy                  CA.......  Six Rivers.............  $1,300,000......  Phased..........  1.................  ..........................  Projected complete in fiscal year
                                                                       1,678 acres                                                                          2016. Need additional $3,320,000/
                                                                                                                                                            2,388 acres
                                                                                                                                                           Project total over 4 years = 5,284
                                                                                                                                                            acres
      5Leech Lake Mountain         CA.......  Mendocino..............  $1,000,000......  Plan to complete  ..................  ..........................  ...................................
                                                                       640 acres          in fiscal year
                                                                                          2013.
    5/6Pacific Crest National      CA/OR/WA.  Several................  $650,000........  Phased..........  Multiple..........  $3,100,000................  Multiple phases beyond 2020
        Scenic Trail                                                   160 acres                                                                           Total need = $141,685,300
      6John Day River Head-waters  OR.......  Malheur................  $2,040,000......  Phased..........  ..................  ..........................  Projected completion 2017 with
                                                                       2,040 acres                                                                          additional $10,464,000/10,464
                                                                                                                                                            acres
                                                                                                                                                           Project total over 4 years = 12,504
                                                                                                                                                            acres
      8CLP Florida/Georgia         FL.......  Apalachicola/Osceola...  $5,300,000......  Phased..........  Multiple..........  ..........................  Multiple phases through 2020. Need
        Longleaf Pine                                                  4,000 acres                                                                          $21,000,000/25,000 acres
      8NC Threatened Treasures     NC.......  Pisgah.................  $1,150,000......  Phased..........  2.................  $1,250,000................  Projected completion 2016. Need
                                                                       176 acres                                               177 acres                    $3,500,000/200 acres
                                                                                                                                                           Project total over 6 years = 900
                                                                                                                                                            acres
      9Great Lakes Northwoods      MN/MI/WI.  Superior, Ottawa,        $1,745,000......  Phased..........  4.................  $1,400,000................  Multiple phases through 2020. Need
                                               Chequamegon-Nicolet.    617 acres                                               241 acres                    $38,443,000/32,610 acres
      9Grey Towers                 PA.......  Grey Towers National     $1,000,000......  Phased..........  ..................  ..........................  Projected completion 2016. Need
                                               Historic Site.          21.5 acres                                                                           additional $1,750,000/181 acres
                                                                                                                                                           Project total over 4 years = 202.5
                                                                                                                                                            acres
     10Whitewater Bay, Admiralty   AK.......  Tongass................  $980,000........  Plan to complete  ..................  ..........................  ...................................
        NM                                                             160 acres          in fiscal year
                                                                                          2013.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
       \1\ Phasing lets the Agency divide a project into smaller portions to allow for portioned acquisition subject to annual appropriation limits.
       \2\ The fiscal year 2014 planned acquisitions are based on the competitive LWCF prioritization process, but the amounts awarded to each project are subject to change based on
         appropriations. Projects might also be added or removed based on urgency of a particular project and market factors subject to congressional reprogramming guidelines.
       \3\ The fiscal year 2014 President's budget includes projects not displayed on this fiscal year 2013 list.
       \4\ Fiscal year 2015 and beyond assumes the appropriation named in the fiscal year 2014 President's budget and are subject to future appropriations. Future phases may change due to
         updated appraisal values and continued participation of willing sellers.
       \5\ This is a Collaborative Landscape Planning (CLP) LWCF project.


    Senator Reed. Do you have sort of a list of those projects 
that are fully completed? You're indicating on your strategy, 
because there's always--and again, this is a good thing. 
There's always sort of a notion that, ``Well, we've really 
consolidated a lot of territory around the national, and 
there's just one or two more pieces that we could do, where 
success leads to additional incentives.''
    So it would be helpful, I think, to us to have a notion of, 
you know, if there is finality in this process and also to look 
closely at those high priority, because you're talking about 
areas of the country where it is time sensitive. You could lose 
the land to either public use--private use, rather, or many 
other reasons if they're not immediately acquired. So we would 
like that information if you could get it.
    With that, let me recognize Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                    INTEGRATED RESOURCE RESTORATION

    Chief, I appreciate that you've clarified, I think, the 
agency's position with the budget request for the integrated 
resource restoration. I think it is important that we are able 
to really look at some concrete results that demonstrate 
improved performance, that really allow us to determine whether 
or not this IRR proposal lowers the costs and achieves better 
results on the ground.
    So what I heard you say to the chairman was that you 
appreciate the pilot program, you're going to continue with the 
pilot. It's probably going to take several years before you can 
get exactly that kind of evidence so that we as a subcommittee 
can then weigh that and make a determination as to whether or 
not it should be made permanent.
    Mr. Tidwell. Yes.

                    LAND AND WATER CONSERVATION FUND

    Senator Murkowski. So I appreciate that clarification.
    Let me ask you a question on the LWCF. The plan calls for 
partial mandatory funding for LWCF in fiscal year 2014, then 
shifts to full mandatory funding of $900 million a year 
beginning in fiscal year 2015. And then within your own 
budget--that was the President's budget. Within your own budget 
proposal, $59 million is included on the mandatory side for 
LWCF in fiscal year 2014.
    And I guess I'm looking at this and saying, we all have our 
priorities most clearly here. I have questioned that at a time 
where budgets are very, very tight, we would be purchasing more 
land when we're not able to adequately care for, maintain, 
provide the resources for what it is that we have. And then 
discussions like we're having here this morning about fire 
season that I think scares us all, and a recognition that we 
simply won't have the resources that we need to deal with that, 
have to move towards disaster funding.
    So I guess it just begs the question here, when you move 
something to mandatory funding, we're basically on autopilot. 
And we are then in a situation where one program receives 
somewhat preferential treatment. If you're on autopilot, it's 
not subject to the same critical review, I think, that we go 
through with all of these very important programs, whether it 
is firefighting, whether it's dealing with hazardous fuels, 
whether it's dealing with our timber harvest programs.
    So I guess a very direct question is, Why does LWCF deserve 
to be put on a higher plane, a higher priority than some of 
these other very critical budget areas?
    Mr. Tidwell. Senator, the LWCF proposal for mandatory 
funding is based on the Department of the Interior's proposals 
to generate additional revenues to cover the cost of that. I 
want to assure you that the only way this could be successful 
is if there is adequate input and oversight from Congress and 
from this committee so that it reflects the type of projects 
you want to see go forward.
    I want to reassure you it has to be part of this, to be 
able to put a system in place so that you have the level of 
input and oversight that's necessary to make sure that it is 
successful.
    Once again, it is driven by what we hear across this 
country about the need to acquire these key parcels of land, 
whether it's for the critical habitat that can assure that 
we're able to recover species and be able to do more active 
management, or those key access points to make sure that folks 
can continue to access the National Forests and Grasslands, or 
in key areas to be able to provide the conservation easements 
so that a private landowner can keep working his land or her 
land so that she can still be able to manage that land as an 
active forest versus having to give it up to some form of 
development.
    That's what really is driving this. Like I said earlier, 
when it comes to the acquisition, in every case that I've dealt 
with during my career, by acquiring those key parcels it 
actually reduces our overall administrative costs and gives us 
more flexibility to be able to manage these landscapes.
    Senator Murkowski. Well, you mentioned the role of the 
committee in terms of determining that priority. I think that 
oversight role is important. And I worry that we might lose 
some aspect of that oversight with this expansion that we're 
talking about.

                             TIMBER HARVEST

    In my last minute, I'd like to bring up the question that 
you know that I'm going to ask. I don't want to disappoint you 
here. But this is relating to the timber harvest in the 
Tongass.
    I asked my staff to get the official agency timber harvest 
for the last 10 years in the Tongass. The high-water mark was 
2003. There were 51 million board-feet. We've gone downhill 
since then to 21 million board-feet last year. We talk about 
the situation every year.
    What can you provide for me today in terms of assurances 
that we're going to see the numbers improve within the Tongass?
    Mr. Tidwell. Senator, last year we sold, I think, right 
around 50 million to 51 million, which is basically our 10-year 
average of timber sold. Harvest has been less than that, based 
mostly on market conditions. That's the way it is.
    Senator Murkowski. When you say ``less,'' would you agree 
that it was 21 million board-feet last year?
    Mr. Tidwell. Well, as far as the harvest numbers, I'll have 
to get back to you.
    [The information follows:]
            Timber Sales, Harvest, and Staffing in Region 10
    The numbers shown between 1998 and 2008 are best estimates for 
timber sale activity and staffing in Region 10.

------------------------------------------------------------------------
                                           Timber     Timber
         Fiscal Year          Number of     Sold    Harvested     FTEs
                                Sales      (MMBF)     (MMBF)
------------------------------------------------------------------------
1998........................         81         24        120        330
1999........................         46         61        146        310
2000........................         67        170        147    \1\ 300
2001........................         40         50         48        280
2002........................         58         24         34        240
2003........................         35         36         51        230
2004........................         54         87         46        200
2005........................         70         65         50        180
2006........................         63         85         43        158
2007........................         41         30         19        130
2008........................         48          5         28        120
2009........................        181         23         28        110
2010........................        146         46         36        107
2011........................         38         37         33        107
2012........................        159         53         21        107
                             -------------------------------------------
15-year average.............         75         53         57        186
------------------------------------------------------------------------
\1\ Fiscal year 2000 marked the last harvest from the Long term
  Contracts and the beginning of the Tongass ``unification'' effort
  which converted three separate ``Areas,'' essentially separate
  National Forest sized entities, into a single large forest
  organization. (Three fully staffed organizations down to one.)
Source: Timber Cut and Sold Reports and Periodic Timber Sale
  Accomplishment Report.


    Senator Murkowski. That's what your agency says.
    Mr. Tidwell. Okay. So based on the market we've seen across 
the country our harvest levels have dropped, even though we've 
been able to maintain or actually increase what we're selling. 
That's how it works. The purchasers need to play the market as 
to when they can move forward to be able to do that. Our 
contract allows them the flexibility to decide what year to 
move forward with the harvest.
    But as far as reassurances, we're ready to move forward 
with the Big Thorne project this year that will have a 
significant amount of volume. And at the same time, we have 
plans for the Wrangell project that will be coming up, I think 
next year. Then the other part of this is that we're going to 
move forward with our second growth, to be able to have that 
second-growth transition.
    I think it is our best chance to ensure that we have an 
integrated wood products industry in Southeast Alaska, to be 
able to provide the wood that's needed in the sawmills, and at 
the same time be able to actually implement projects. It's one 
of those things that I think, through a stewardship contract, 
especially over a lengthy period like 10 years will provide 
that certainty so that private entities can make the 
investments in their mills. And that is the path forward.
    So we're going to need your help in a couple of areas. 
There's another issue I want to talk to you about in the 
future. And that is if we could use the export values in our 
appraisal process, that would also help us to be able to put 
more of our timber, more sales, forward. And it's something 
that I'd like to be able to sit down with you in the future and 
discuss to see if we can get your support on that.
    But I do believe that the sales that we have lined up, plus 
our focus on moving forward with the transition to second 
growth, is going to give us the best path forward to be able to 
continue to build on a level of timber sales that we've been 
putting up over the last couple of years.
    Senator Murkowski. Well, Chief, you know that I am happy to 
talk with you. I'm happy to work with you, because I'm trying 
to keep some of these small Southeastern communities alive. And 
the one thing that I can't do is, I can't make these trees grow 
any faster.
    And so when we talk about the transition, I've said it 
before, I will repeat again in this committee, I worry that we 
don't have our operators who are able to hold on until we can 
transition to that second growth, that you have situations just 
exactly as Senator Merkley has described in Oregon, where they 
had the Rough & Ready go down a few weeks ago, and now they've 
got another one going down. At some point in time, there is 
nobody left to deal with this transition.
    And so I've pressed you to know whether or not the agency 
has a plan B, because I'm not sure that plan A, which is to 
transition to second growth, is one that is viable in an area 
where you have just 300 jobs remaining in the whole region. And 
it's getting skinnier every day.
    So, Mr. Chairman, my time has expired right now. But I do 
think that this is something, again, we have this conversation 
every single year. And we're just not seeing things improve in 
the Tongass. So we've got to look at a different approach and 
one that will hopefully deliver some results for these 
communities.
    Senator Reed. Thank you, Senator Murkowski.
    Senator Tester.

                               AIRTANKERS

    Senator Tester. Thank you, Mr. Chairman. Real quickly, to 
follow up on the contracted next-gen, just real quick just for 
clarification purposes. My notes say that you said that these 
planes, these contracted next-gen planes, will have FAA 
clearance to fly as airtankers. They have that now?
    Mr. Tidwell. It's my understanding that all except one 
aircraft, I think, still needs FAA certification. But the other 
aircraft have been used for other purposes, for passenger 
planes or cargo planes in the past. So we expect to have the 
FAA certifications.
    But I can follow up with that, Senator.
    [The information follows:]
           Next Generation Large Air Tanker FAA Certification
    Six of the seven next generation large airtankers proposed in the 
intent to award are FAA approved with a FAA Type Certificate.

    Senator Tester. Yes. Well, the question is, Do they have it 
or do you expect that they will have it?
    Mr. Tidwell. It's my understanding that these aircraft do 
have it, except there is one that made a modification with the 
airframe and they've been working on getting that 
certification.
    Senator Tester. Sure.
    Mr. Tidwell. I can check on that.
    Senator Tester. If you could check on it and get back to 
us, that would be very much appreciated.
    I want to talk a little bit about this C-27Js. The chairman 
talked about it a little bit. You talked about it in your 
statement. Could you give me an idea, is the transfer in 
process of the seven C-27Js?
    Mr. Tidwell. It's my understanding the Air Force is doing 
the study to determine if these aircraft are surplus or not.
    Senator Tester. Okay.
    Mr. Tidwell. We're hoping that will be completed later this 
year, hopefully by September. If they determine that they're 
surplus, it's my understanding that seven of those aircraft 
will be offered to the USFS.
    Senator Tester. And what's the timeline for acceptance?
    Mr. Tidwell. I think once they're offered, we will accept 
them as quickly as we can and then move forward to make the 
modifications on those aircraft so that they can be retardant 
planes.
    Senator Tester. Okay. Is there a system available, a 
retardant delivery system available for that plane?
    Mr. Tidwell. Not today. We are moving forward with our 
current MAFFS units and to be able to create one that would fit 
into the C-27J. We're working on the design of that. Then once 
we have that design completed, we'd be able to quickly move 
forward to have these units built.
    Senator Tester. Okay. And not being a pilot myself, I would 
assume that these planes would also have to be cleared by the 
FAA to be tanker planes to fight fires?
    Mr. Tidwell. These planes do meet all the airworthy 
criteria, so it would be up to us to determine that they meet 
our airworthiness standards and that they would be able to 
deliver the mission. But based on the success we've had with 
the C-130s, we expect the C-27Js will work just fine. They just 
carry a smaller payload than the C-130s.
    Senator Tester. Do you know what their payload is?
    Mr. Tidwell. We anticipate that the payload would probably 
be about 1,800 gallons. So these would be medium airtankers.
    Senator Tester. The reason I ask that is because at one 
point in time they were going to put C-27s at the Air National 
Guard in Great Falls, Montana. And I don't know this for a 
fact, but it seemed to me like their payload was 2,000 pounds. 
But we can visit about that. We're not to a point where that 
becomes an issue yet.
    What about service and maintenance? Will that be contracted 
out?
    Mr. Tidwell. Yes.
    Senator Tester. Do you anticipate there being issues there?
    Mr. Tidwell. No. We expect that probably some of our 
current operators would be glad to have a contract and be able 
to maintain and operate those aircraft.
    Senator Tester. Okay. And then you'd mentioned in a 
previous question or maybe in your opening statement that you 
thought it would be about $3 million per aircraft to adapt the 
aircraft and place the delivery system in that aircraft. Is 
that based off of--what's that based off of? Have you guys done 
some studies on that, or what?
    Mr. Tidwell. It's based on our past experience with 
building MAFFS units. That's part of it. And then also 
realizing that we'd have to spend some money in order to remove 
some of the military equipment and, like I said earlier, some 
of the armoring that's on these aircraft. It's not necessary 
for our mission, and we would look at removing some of that 
excess weight that wouldn't be necessary.
    Senator Tester. Okay. Overall, by the time you get done, 
let's just assume the military makes the transfer. You get 
seven of these babies. Are you looking at a $21 million 
expenditure to make the adaptation and have them up in the air? 
Or have you done any projections on what it would cost to get 
them up?
    Mr. Tidwell. It will be probably be $21 million and maybe 
$26 million is what it will take.
    Senator Tester. Okay. All right. Thank you. Thanks for 
that. Just curious to see where we're at.

                             COLLABORATION

    Look, as a regional forester in Region 1, the most 
important region, right? No, you don't have to answer that. You 
did some great collaboration. You did some great collaboration. 
And it really shows what can happen when you do collaboration 
versus what happens when both sides dig in. Everybody loses, 
including the forest.
    And so are you looking to expand upon collaborative 
projects? I mean, look. Senator Merkley talked about it. Both 
the chairman and the ranking member talked about it. If we lose 
the infrastructure that's out there because we don't have 
predictable supply, then it all falls on the taxpayers, it all 
falls on your budget. Is there some work being done 
collaboratively in different regions of the country that we can 
point to that say, ``Yes, we're making progress here,'' as far 
as stopping the folks who don't want to cut one single tree?
    Mr. Tidwell. Yes, Senator. Throughout the country, we've 
had significant progress that's been made. The collaborative 
forest landscape project is just one example. There is an 
understanding and recognition across this country that there is 
a need for us to manage these forests and to reduce not only 
the hazardous fuels, but to make them more resistant, more 
resilient to the changing climate they have to deal with.
    So there is recognition, and we're seeing it almost 
everywhere. We still have some issues in your State of Montana 
where we've lost a little ground recently. But we're going to 
keep working there to be able to show folks, this is the right 
work that needs to be done at the right time.
    Senator Tester. Well, not to put pressure on the ranking 
member of this subcommittee, because she's the ranking member 
of another very important committee. But if we can get her out, 
maybe we can show her collaboration in Montana that does work. 
Thank you, Chief.
    Senator Reed. Thank you very much, Senator Tester.
    Just for the record, we will keep the record open until May 
29. So you may get additional questions from my colleagues, and 
additional statements could be provided. That's next Wednesday. 
But I know Senator Murkowski has a request. And before I 
adjourn, let me recognize Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Just very 
briefly.
    Chief, you have provided us with the timber offered over 
the past 10 years in the Tongass and the Chugach; I appreciate 
that. We'd also asked for the number of employees and the 
breakdown between the Chugach and the Tongass so we have them, 
those positions that are approved, those that are currently 
filled.
    Can your folks get us the breakdown then on the number of 
jobs then within the Tongass that are focused on forest 
management, just kind of give us that breakdown, if you will, 
when you respond?
    [The information follows:]
            Tongass National Forest, Forest Management Staff
    There are 112 positions in Forest Management in the Tongass 
National Forest Supervisor's Office and Ranger Districts.

         TONGASS NATIONAL FOREST, FOREST MANAGEMENT ORGANIZATION
------------------------------------------------------------------------
Location/                                                     Number of
  Series                      Series Name                     Positions
------------------------------------------------------------------------
        Supervisor's Office:
    0460    Forester                                                 9
    0462    Forestry Technician                                      3
    0807    Landscape Architect                                      3
    1315    Geologist                                                2
    0193    Archeologist                                             1
    0401    Recreation                                               1
    1101    NEPA Coordinator                                         2
    1082    Writer/Editor                                            1
    0408    Ecologist                                                3
    1035    Public Affairs                                           1
    0802    Engineering Tech                                         2
    0810    Engineer/Transportation Planner                          2
    1315    Hydrologist                                              1
    0482    Fish Biologist                                           1
    0470    Soils                                                    2
    2210    GIS                                                      5
    0301    NEPA Planner                                             2
    0486    Wildlife Biologist                                       1
        Ranger District Offices:
    0460    Forester                                                24
    0462    Forestry Technician                                     17
    0404    Fish Technician                                          2
    0193    Archeologist                                             5
    0401    Natural Resource                                         6
    1101    Specialist (NEPA, IDT Leader) NEPA                       2
             Coordinator
    1082    Writer/Editor                                            3
    0408    Ecologist                                                1
    1315    Hydrologist                                              2
    0482    Fish Biologist                                           3
    0470    Soils                                                    1
    0301    NEPA Planner                                             1
    0486    Wildlife Biologist                                       3
                                                          --------------
              Total Number of Positions                            112
------------------------------------------------------------------------


    Senator Murkowski. And then in the Energy Committee, I had 
mentioned the Anan Creek facility. And I think we're working on 
a proposed solution for that. I understand that there's been 
some engineering work that has advanced. So hopefully, when we 
get you up to the State, we can see some good news there, as 
well.
    But I look forward to visiting with you a little bit more 
and welcoming you north.
    So, appreciate that, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Reed. Thank you. There are no further questions. 
Let me thank you, Chief, and thank you, Ms. Cooper, for your 
testimony today. And we look forward to working with you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Jack Reed
                     forest and rangeland research
    Question. What initiatives are you planning for next year that 
account for the $15 million increase in Forest and Rangeland Research?
    Answer. To be successful in our restoration efforts, Forest Service 
Research and Development (R&D) will play a critical role. Our R&D 
priorities are integral investments in science as a foundation for 
restoration activities. One avenue that we will take is to accelerate 
opportunities to develop new public/private partnerships to 
commercialize nanocellulose technologies. This will revolutionize 
technology, creating new jobs and revenues while simultaneously 
restoring our forests, thus strengthening America's economy through 
industrial development and expansion.
    Forest Service R&D is investing in a Vibrant Cities program which 
will direct research efforts in selected urban areas to provide new 
information and tools to help in sustainability planning. Forest 
Service R&D will accelerate its urban research program on urban forest 
health and management, ecosystem services and values, watershed 
rehabilitation, human health and experiences, green infrastructure, and 
green building. This effort is aligned with the Vibrant Cities & Urban 
Forests National Call to Action initiative.
    We will also invest more in our Localized Needs Research Priority 
Area, as directed by Congress in House Report 112-331, page 1080.
                       state and private forestry
    Question. What do you hope to accomplish with the new, $20 million 
Landscape Scale Restoration proposal?
    Answer. The goal of the proposed Landscape Scale Restoration (LSR) 
Program is to focus and prioritize State and Private Forestry (SPF) 
resources to better shape and influence forest land use at a scale and 
in a way that optimizes public benefits from trees and forests across 
all landscapes, from rural lands to urban centers. This is an evolution 
of the successful SPF ``Redesign'' effort, formalizing a process 
already in place by establishing a specific Budget Line Item (BLI), 
rather than combining funds from specific BLIs. This will provide 
increased flexibility for States to focus on the priorities identified 
in their Forest Action Plans without the limitation of a predetermined 
mix of programmatic funding. The work under this BLI will continue to 
identify the greatest threats to forest sustainability and accomplish 
meaningful change in priority landscapes. As a competitive grant 
program, it will provide flexible opportunities to fund innovative 
projects across boundaries that focus on States' priorities.
    Question. How are States with predominately State or privately 
owned forests but smaller ``landscape,'' such as Rhode Island, likely 
to compete?
    Answer. The increased focus on ``All Lands'' projects brings 
particular attention to implementation of the priorities identified in 
State Forest Action Plans, formerly called ``Statewide Assessments.'' 
Landscapes will be defined broadly in this competitive grant program, 
focused on cross-boundary work between not only States and the Forest 
Service, but between States, between States and private landowners, 
between States and Tribes, etc. As such, States with large amounts of 
State and private land, such as Rhode Island, are expected to compete 
just as successfully as States with more Federal land. Over the past 5 
years, Rhode Island has been successful in receiving project funding 
through the competitive ``Redesign'' process, and it is expected that 
success will continue under the LSR program, especially with Rhode 
Island's record of bringing partners, such as universities and 
nonprofits, into their competitive project process.
    Question. Will this year's $7 million reduction in Urban Forestry 
all go to Landscape Scale Restoration? Please detail the estimated 
State allocations vis-a-vis fiscal year 2013.
    Answer. The Urban and Community Forestry (U&CF) program estimates 
that State allocations in fiscal year 2014 will be largely the same as 
in fiscal year 2013 and the U&CF program will continue to support 
landscape scale restoration efforts. In recent years, the U&CF program 
has contributed roughly 15 percent of fiscal net available dollars to 
``Redesign'' projects, and similar levels are anticipated for future 
landscape scale restoration projects that can include urban areas. Of 
the total proposed reduction to the U&CF program, approximately $3.6 
million is the estimated contribution to ``Redesign'' or what will 
essentially be the LSR BLI. The U&CF program plans to make reductions 
in areas such as national partnerships and initiatives (e.g. Urban 
Waters Federal Partnership) to maintain the U&CF community assistance 
activities carried out primarily through State forestry agencies with 
the State allocations.
                         national forest system
                    integrated resource restoration
    Question. Please outline the findings for the first year of the 
Integrated Resource Restoration (IRR) pilot and what improvements you 
are making this year with that knowledge.
    Answer. The pilot regions reported several advantages of the IRR 
program:
  --Increased flexibility to fund multiple priorities, integrate 
        planning efforts, leverage IRR funds to support Collaborative 
        Forest Landscape Restoration projects, and to achieve priority 
        integrated restoration work.
  --Increased coordination across program areas and increased 
        integrated planning.
  --Implementing high-priority projects is easier without multiple 
        budget line items because it provides more flexibility.
  --Focused investments in landscape-level projects allowed restoration 
        actions to be funded in a single year that would otherwise be 
        piecemealed over many years.
  --The focused, integrated effort made setting goals and priorities 
        easier.
    Regions also identified challenges with the IRR program, including:
  --The Forest Service manages a number of programs that may not 
        directly contribute to restoration activities in IRR under the 
        previous separate programs, presenting challenges in how we 
        manage these base programs and how they fit in the context of a 
        restoration program.
  --Not all restoration priorities will align with traditional targets 
        as allocated from previous years with IRR authority.
  --The consolidated nature of IRR does not lend itself easily to 
        breaking out the cost of specific restoration activities to 
        estimate trends in unit costs.
    We are addressing the challenges going into fiscal year 2014 
through improved program direction and continuing communication between 
the Washington office and the three regions under the pilot authority.
    An agreement was entered into with Colorado State University and 
the University of Oregon to accomplish third-party monitoring and 
evaluate the effectiveness of the IRR program. Surveys will be 
conducted with key Forest Service individuals at all levels and case 
studies will be evaluated within the pilot regions. Findings from these 
activities will ultimately help the Agency better manage the program.
    Question. Why does the budget propose full implementation in fiscal 
year 2014, when the pilot project has not concluded?
    Answer. The IRR pilot regions met or exceeded allocated targets in 
all areas except for timber volume sold, which was 82 percent of the 
target volume. Factors unrelated to IRR caused this shortfall, such as 
litigation on projects with significant portions of acres to be 
treated, no bids received on timber sales, and impacts from a demanding 
fire season. The IRR pilot authority has provided a valuable learning 
opportunity for the Agency. The flexibility provided by IRR facilitates 
focused investments on expediting the completion of on landscape-level 
restoration projects that would otherwise be split over the course of 
many years. It allows the Agency to leverage funds across multiple 
programs to increase efficiency in planning and in achieving 
restoration outcomes. The flexibility given to Line Officers and 
program managers has proven beneficial in helping with prioritizing 
restoration treatments. To fully realize the flexibility created 
through IRR, it must be expanded to a full Agency-wide authority. In 
doing so, the Agency can focus resources on integrated ecosystem 
restoration across the country.
    The Forest Service will continue to monitor and report the 
performance results from the three regions under the IRR pilot 
authority to demonstrate the advantages of the program.
                        restoration partnerships
    Question. What is the split between grants and ``partnership 
development'' in the $10 million proposed for Restoration Partnerships?
    Answer. This new authority is not a grant program. We propose a new 
$10 million program to create and build partnerships for improving 
municipal and beneficial-use watersheds, reduce risks from wildfire to 
public utilities and infrastructure, and reduce biomass to sustain 
landscape fuel reduction and watershed investments. All of the funding 
would be used to support on the ground partnership work, a portion of 
which will fund staff work for those projects at a rate to be 
determined by the specific projects selected. Within Restoration 
Partnerships, funding will be allocated to a cost-share program and to 
partnership development with municipalities, public utilities, and 
other organizations. Partnership development will enable regions and 
forests to act on innovative partner supported ideas, with diverse 
partners including nongovernmental entities, municipal partners, and a 
variety of public service utilities.
    Question. What match will be required from non-Federal partners?
    Answer. There is no required match in Restoration Partnerships, but 
our target for fiscal year 2014 is to leverage $11 million in partner 
funding for the $10 million in requested Federal funding. In fiscal 
year 2012, the Forest Service entered into more than 7,700 grants and 
agreements with partners, who contributed $535 million, which was 
leveraged by nearly $779 million in Forest Service funding. However, 
Restoration Partnerships emphasizes the critical role of non-Forest 
Service resources across projects diverse in scope and duration. The 
Restoration Partnerships program will enable regions and forests to 
work with diverse partners to implement innovative projects that will 
expand the success of smaller scale projects to much larger landscapes. 
They will grow the circle of partners to include an increased number 
and broader array of municipal, utility, and nongovernmental 
organization partners. We will track the total value of resources, 
expressed as a ratio, leveraged through partnerships with States and 
other partners to assess performance in this newly proposed program.
    Question. Do you anticipate National Forests in the East to 
participate?
    Answer. Yes, all Forest Service regions will be able to respond 
affirmatively to partner sponsored projects to protect critical 
infrastructure such as electrical transmission lines, by reducing 
accumulated fuels, implementing municipal watershed restoration, and 
protecting and enhancing water quality and quantity.
                       administrative grazing fee
    Question. What percentage of the Forest Service's Grazing program 
costs will the new $1 administrative fee cover?
    Answer. We estimate that the proposed $1 fee would generate 
approximately $5 million per year, approximately 6.2 percent of the 
grazing program costs in fiscal year 2012. The total grazing program 
costs in fiscal year 2012 were $80.9 million, with $55.4 million 
covered by the Grazing Management BLI, $2.3 million from the Range 
Betterment Fund, and the remaining $23.2 million coming from Vegetation 
& Watershed Management and Integrated Resource Restoration BLIs.
    Question. How much will this $1 fee add to the total cost per 
animal?
    Answer. Changes in the total cost per animal with an added $1 fee 
per head month are shown below (Western States National Forest).
    On average (based on the Agency's 2012 Grazing Statistical Report 
authorized use data):
  --This additional $1 fee would add $1 per cow/horse per month. 
        Combined with the current fees, ($1.35 per head month for 
        cattle), this would make the total cost $2.35 per cow per 
        month.
  --This additional $1 fee would add $.20 per sheep per month (one-
        fifth of a head month). Combined with the current fees ($.27 
        per sheep per month), this would make the total cost $.47 per 
        sheep per month.
    Question. What are the comparisons for Forest Service fees to State 
and private lands?
    Answer. The grazing fee for the Forest Service and the Bureau of 
Land Management are identical in the western States. The National 
Agricultural Statistical Service (NASS) provides both agencies three 
indices that are used in the fee calculation formula. This amount is 
restricted to plus or minus 25 percent of the previous year's fee. The 
regulations also established a minimum fee of $1.35.
    The NASS calculates the average private grazing land lease rate per 
animal unit month (AUM) by State, which can be found on the following 
website: http://www.nass.usda.gov/Statistics_by_Subject/
Economics_and_Prices/index.asp.
    These values are shown below. For comparison, the Forest Service 
cattle grazing in Western States fee is $1.35 per head month (HM) for 
2013. There are adjustment factors for type (species) of animal.
    The Western States vary considerably in the fees charged for 
grazing on State lands and the methods used to set those fees. The GAO 
report titled ``Livestock Grazing, Federal Expenditures and Receipts 
Vary, Depending on the Agency and the Purpose of the Fee Charged, 
2005'' provides the last data on State land grazing fees. Generally, 
States charge a fee per AUM. In fiscal year 2004, the Western States 
charged grazing fees ranging from a low of $1.35 per AUM for some lands 
in California to $80 per AUM in parts of Montana.
    Below is a comparison of grazing fees on National Forest System 
lands, State managed lands, and privately owned lands.

----------------------------------------------------------------------------------------------------------------
                                                                            Difference
                                                    $/AUM                     NFS &                   Difference
                                                   Western     Average $/    Private     Average $/  NFS & State
                     State                          States    AUM Private     lands      AUM State      lands
                                                   National       Land       grazing        Land       grazing
                                                    Forest                     fees                      fees
----------------------------------------------------------------------------------------------------------------
AZ.............................................         1.35         9.00         7.65         2.23         0.88
CA.............................................         1.35        17.30        15.95   1.35-12.50   0.00-11.15
CO.............................................         1.35        15.30        13.95    6.65-8.91    5.30-7.56
ID.............................................         1.35        14.50        13.15         5.15         3.80
MT.............................................         1.35        19.40        18.05   5.48-80.00   4.13-78.65
ND.............................................         1.35        18.00        16.65   1.73-19.69   0.38-18.34
NE.............................................         1.35        27.30        25.95  16.00-28.00  14.65-26.65
NM.............................................         1.35        13.00        11.65   0.17-10.15   -1.18-8.80
NV.............................................         1.35        13.00        11.65          N/A          N/A
OK.............................................         1.35        11.00         9.65   7.00-16.00   5.56-14.65
OR.............................................         1.35        14.80        13.45         4.32         2.97
SD.............................................         1.35        24.20        22.85   3.00-56.00   1.65-54.65
UT.............................................         1.35        13.20        11.85      1.43 or      0.08 or
                                                                                               2.35         1.00
WA.............................................         1.35        12.00        10.65      5.41 or      4.06 or
                                                                                               7.76         6.41
WY.............................................         1.35        17.60        16.25         4.13         2.78
----------------------------------------------------------------------------------------------------------------
AUM = Animal Unit Month = Head Month.

                            land acquisition
    Question. The first project on the Forest Service Land Acquisition 
list is $31 million. Why does the budget place such a high funding 
priority on one project in fiscal year 2014? Is $31 million all that is 
required to complete the project?
    Answer. This request is part of the multi-Agency, public-private 
``Montana Legacy'' collaborative. These investments directly fulfill 
the intent of the Land and Water Conservation Fund (LWCF) Collaborative 
Landscape Planning Initiative and address the requests of members of 
Congress and our private partners for a portion of Federal land 
acquisition to invest in the most ecologically important landscapes and 
in projects with clear strategies for reaching shared goals grounded in 
science-based planning. Through Collaborative LWCF, the Forest Service 
and the Department of the Interior bureaus jointly direct funds to 
projects that will achieve the highest return on Federal investments, 
and coordinate land acquisition planning with Government and local 
community partners.
    In this Montana Legacy project, this collaborative land acquisition 
effort leverages millions in private investments such as a 110,000-acre 
donation to the Flathead and Lolo National Forests by the Nature 
Conservancy in 2010 and is resulting in the consolidation of tens of 
thousands of acres of the highest quality wildlife habitat and working 
lands in the northern Rockies. Eliminating the historic 
``checkerboard'' lands will allow us to move toward completion and 
protection of this globally important ecosystem by 2015 instead of 
attempting it piecemeal over the next 10 or 20 years during which time 
parcels would be developed and lost, and it will result in improved 
management, reduced administrative costs and increased recreational 
opportunities.
    Question. What should we expect from this Collaborative Landscape 
Planning program long-term? Will the same landscapes continue to be in 
the budget until they are completed, or will we see different focus 
areas next year?
    Answer. In an era of constrained budgets, it is more important than 
ever that conservation investments deliver measurable returns, and rely 
on best available science and strong partnerships to target investments 
to critical needs. The administration's intention is for the Forest 
Service to continue to participate in the Collaborative Landscape 
Planning (CLP) program. The collaborative approach is successful 
because it allows LWCF funds to leverage other Federal resources, along 
with those of non-Federal partners, to achieve the most important 
shared conservation outcomes in the highest priority landscapes. An 
important objective of this program is to stabilize large landscapes in 
a short timeframe before they can be further fragmented and become more 
expensive if not impossible to protect. At the same time, the Forest 
Service recognizes the valuable role of protecting individual tracts of 
land with other LWCF components including Forest Legacy, and 
collaborative LWCF is not intended to replace the role of those 
programs in meeting individual conservation objectives.
    Collaborative LWCF enables the Forest Service to continue its long 
held focus on conserving large-scale landscapes that provide multiple 
resource and economic benefits to the public including cleaner drinking 
water, increased recreational opportunities, improved and protected 
habitat for at-risk and game species, and a greater number of jobs 
generated on and off these lands. This approach also produces direct 
long-term benefits for the taxpayer by simplifying land management, 
creating public access, reducing operating and maintenance costs, 
reducing boundary conflicts, and protecting areas from urgent threats 
like wildfire and invasive species. Throughout this process, the Forest 
Service will continue to use its rigorous merit-based evaluation 
process to prioritize projects for funding for Forest Legacy, core and 
the multi-Agency CLP LWCF programs.
    The investments needed in any particular collaborative landscape 
will be unique to that landscape's needs and resources. As part of the 
application process, landscape proponents are requested to identify 
future acquisition needs; to date, most projects are designed to take 2 
to 3 years to complete, whether in the core competition or the CLP.
    Question. For the Crown of the Continent, Longleaf Pine, and Desert 
Southwest Collaborative Landscapes, please provide a list of Forest 
Service projects within those Landscapes, designating completed and 
incomplete projects.
    Answer. None of the Collaborative Landscapes are complete because 
only 1 year of funding has been disbursed. They are conceived as 2- to 
3-year projects. Fiscal year 2013 is the first year of the 
Collaborative Landscape Planning Program. The first round of 
Collaborative Landscape Projects were selected in 2012, and announced 
in the administration's fiscal year 2013 budget request. The Crown of 
the Continent and Longleaf Pine projects areas were initiated in 2013. 
The Crown of the Continent initially included two sub-landscapes, which 
were the Montana Legacy Completion project and the Greater Yellowstone 
project. In 2014, these two projects were de-coupled and only the 
Montana Legacy Completion project received a funding recommendation. 
The Greater Yellowstone project will compete again in the fiscal year 
2015 process.
    The Desert Southwest Landscape was not proposed until fiscal year 
2014. The Desert Southwest Collaborative is in the President's budget 
request to Congress for fiscal year 2014 for the first time therefore 
it is also not complete, as the fiscal year 2014 appropriations are not 
finalized.

------------------------------------------------------------------------
                                                        Fiscal Year 2014
                                Fiscal Year 2013:  FS      President's
                                        Funded           Budget Request
------------------------------------------------------------------------
Crown of the Continent:
    Montana Legacy: Lolo/                  $12,400,000  $31,000,000
     Flathead NF.
Greater Yellowstone Area:                    3,200,000  Proposed for
 Bridger-Teton/Caribou-                                  $2,000,000 by
 Targhee.                                                Forest Service,
                                                         but not a CLP
                                                         project.
Longleaf Pine Collaborative:
    Florida/Georgia Longleaf                 5,300,000  Not included in
     Initiative: Osceola NF.                             CLP.
South Carolina Longleaf                  \1\ 1,000,000  $6,700,000
 Partnership: Francis Marion
 NF.
Desert Southwest:
    California Desert                       10,390,000  $10,390,000
     Southwest: San
     Bernardino NF, Santa
     Rosa & San Jacinto NM.
------------------------------------------------------------------------
\1\ Core LWCF funding.

                        wildland fire management
    Question. Do you agree that the ability to provide emergency 
firefighting funds is critical? Will you support efforts to provide an 
emergency or disaster designation for funds appropriated to pay for 
emergency firefighting needs?
    Answer. In the past few years, fire seasons have become longer and 
more intense with historical fires in several Western States. Funding 
the rolling 10-year average with both the FLAME and Suppression funds 
is insufficient in some years which results in detrimental transfers. 
In addition, continued growth of the 10-year average adds increasing 
pressure on already tight discretionary funding. We would like to work 
with the committee to explore long-term solutions to this problem.
    Question. How does fire borrowing negatively impact your other 
programs, even if Congress does provide a partial or full repayment at 
a later date?
    Answer. When funding is transferred from other programs to support 
fire suppression operations, these programs are impacted because they 
are unable to accomplish priority work and achieve the overall mission 
of the Agency. Often this priority work mitigates wildland fire hazard 
in future years. The ability of programs to achieve established targets 
is impacted and projects are often put on hold or canceled. This not 
only impacts the ability of the Agency to fulfill its mission 
responsibilities, but is an inefficient use of taxpayer resources. A 
significant amount of money can be wasted if all of the pre-work for a 
contract has been completed and then it is canceled due to transfers. 
In addition, transfers negatively impact local businesses and 
economies, costing people jobs and income because projects are delayed 
or canceled. Examples of deferred or canceled activities include 
contracts not awarded for various priority restoration projects, such 
as our Collaborative Forest Landscape Restoration projects, and ceased 
activity for land acquisition.
    Question. The budget request recounts the accomplishments and 
benefits of programs that assist in reducing the incidence of 
catastrophic fire, yet these programs are proposed for decreases in 
fiscal year 2014 (hazardous fuels reduction, State and volunteer fire 
assistance, forest health management of pests and disease, and fire 
science). Aren't these reductions counter-productive to forest health 
and the Forest Service's stated goals of restoration, jobs and managing 
wildfires?
    Answer. The budget reductions will result in lower targets and 
lower accomplishments. However, in times of reduced budgets, 
prioritization becomes even more important. Firefighter and public 
safety will remain our number one priority during the 2014 fire season. 
The Forest Service will continue to prioritize work to accomplish the 
most important projects in all of our programs. Specifically, the 
highest priority projects are focused where the threat is high, we can 
make a difference, and we have community partners.
    Question. How much of the $116 million decrease in Hazardous Fuels 
is transferred to the Integrated Resource proposal?
    Answer. The fiscal year 2014 President's budget proposes 
$201,228,000 for Hazardous Fuels, which reflects a funding decrease of 
$115,848,000 from fiscal year 2013 including--a shift of $76 million to 
IRR. Funds that may have been spent on hazardous fuels reduction 
outside the Wildland Urban Interface (WUI) in previous years will now 
be part of IRR to support integrated restoration of National Forest 
System lands. We will continue to focus on the highest priority areas 
in the WUI to protect communities and create defensible space for 
firefighters to work in.
    Question. With such a dramatic decrease for Hazardous Fuels within 
Wildland Fire, how are you planning to set priorities for where work is 
performed?
    Answer. The Forest Service continues to improve its processes for 
allocating fuel reduction funds, which prioritizes fuel reduction 
projects based on national priorities. These improvements include the 
use of a computer model developed by the Forest Service (the Hazardous 
Fuels Priority Allocation System, or HFPAS) to assist in making 
allocation decisions, rather than relying primarily on historical 
funding patterns and professional judgment. HFPAS uses data from 
various sources and considers wildfire potential, negative consequences 
of wildfire, program performance with prior years' allocations, and 
potential opportunities that meet other integrated resources 
objectives. The Agency annually updates the model inputs to use the 
best available data and science. The Forest Service also directs its 
regional offices to use a similar process and finer scale information. 
Additionally, we have directed the regions and field units to focus on 
projects where the threat is high, we can make a difference, and we 
have community partners.
    Question. In your testimony, you disclose that almost half of the 
Forest Service budget is dedicated to fire-related activities. What 
solutions are you pursuing to make firefighting cost less? How do we 
tackle this problem so that Fire doesn't overtake other Forest Service 
functions and priorities?
    Answer. We have made significant strides in implementing risk 
management for fire suppression efforts, to ensure we have an 
appropriate, risk informed, and effective response to all fires. Cost 
is one outcome of our decisions. By utilizing risk management 
techniques we are successful in having positive financial outcomes on 
our suppression operations. Based on analysis performed by Forest 
Service researchers, in fiscal year 2012, we spent nearly $377 million 
less than we would have in previous years, had they had similar fire 
seasons, due to applying risk management principles.
    Question. Sequestration will reduce your firefighting assets by at 
least 100 fire engines and 500 fire crew members. Are those figures 
still correct and what are the consequences for fighting fire this 
year?
    Answer. Yes, we anticipate reductions at approximately this level 
(although the engines may be subject to a reduction of 50-100). 
However, we will ensure that there are adequate resources available to 
meet the demands of fire activity through the use of contracted assets 
as well as by managing the levels and location of seasonal employees 
available nationally.
    Question. We currently use a 10-year average of suppression costs 
to predict the funding necessary for the next fiscal year. The fact 
that we have spent more than the 10-year average in 9 of the last 10 
years, it is evident that this model is not reliable. Are you working 
on a different model, and what are the options?
    Answer. We have only overspent the 10-year average in 7 of the last 
10 years. Fire costs are dependent on several factors, primarily 
weather, that are extremely difficult to predict 2 years out, as is 
necessary to meet budget formulation timelines. We have explored 
several methods, including multi-equation regression models that 
include weather and climate data, to more accurately predict future 
costs and fire activity and have had some success. We will continue to 
work to develop these methodologies and would like to work with the 
committee to explore other options.
                             fire aviation
    Question. Last year's budget included $24 million to pay for 
increases in tanker contract costs for the Next Gen aircraft. The 
President's budget request for fiscal year 2014 has an additional $50 
million, but there is not a total specified in the budget for aviation. 
What is the total amount you are proposing to spend, in both 
Preparedness and Suppression, on firefighting aviation?
    Answer. Total aviation expenditures are hard to predict given that 
a large portion of our costs are associated with actual flight hours 
for flying suppression operations. We do expect to spend between $160 
million and $200 million on fixed availability costs for all aviation 
assets (this includes not only large airtankers, but other assets like 
helicopters and water scoopers) from the preparedness account. In 
addition, on average, we spend $150 million to $200 million on flight 
costs, which are paid from suppression. The additional funding will 
support the contract acquisition costs of the continued phasing in of 
modernized aircraft.
    Question. Are we going to see similar increases every year for this 
activity due to the increasing number of aircraft? What are the 
estimates of how much additional funding new aircraft will cost in 
future years?
    Answer. As we continue to modernize our airtanker fleet, we will 
evaluate the needs for fiscal year 2015 and beyond to determine if we 
will continue to ask for specific increased funding for this purpose, 
weighing our other funding needs within the Agency.
    Question. Congress has given you the opportunity to obtain 7 C-
27Js. If you do receive them, they will not be immediately ready as 
tankers. What are you able to do now to prepare for the transfer?
    Answer. A working group, made up of the following Aviation staff 
groups, Operations, Business Operations, Airworthiness, Pilot 
Standardization, and Strategic Planning--as well as Budget and Planning 
and Acquisition Management--has been formed within the Agency to 
facilitate the transfer, ownership, and eventual operation of these 
aircraft. Solicitations are being prepared for the design and 
manufacture of a retardant delivery system, maintenance services, and 
pilot services. The Forest Service is also working with the U.S. Army 
Prototype Integration Facility to assist us with the design of the 
retardant delivery system. The Forest Service is currently in 
discussions with the Department of Defense regarding the divesture of 
the C-27Js. The Forest Service has also intensified interaction and 
coordination with potential inter-Agency partners to ensure contracts 
and other logistical requirements will be in place as soon as possible 
after receiving the aircraft.
    Question. Do you have an estimate of how long it would take to 
convert the C-27Js to tankers after a transfer?
    Answer. The Forest Service estimates it may take up to 18 months 
from the award of the retardant delivery system contract to complete 
the design, manufacture and testing. The retardant delivery system is 
the most complicated of the conversion tasks, because it involves 
engineering analysis, design and airworthiness, and engineering 
approval of the aircraft after modifications required to accept the 
delivery system and the actual installation of the delivery system have 
occurred.
    Question. What assurances can you provide that these C-27J aircraft 
will actually perform as well as other firefighting aircraft?
    Answer. The C-27J was designed for combat purposes, which are a 
similar flight environment to the wildland firefighting airtanker 
mission. It has a demonstrated ability to meet Agency and Federal 
Aviation Administration airworthiness and safety requirements. The C-
27J is a multi-role aircraft capable of operating as an airtanker, as 
well as performing other missions such as firefighter transport, 
smokejumper deployment, and cargo delivery.
    Question. If you acquire the C-27Js, the Forest Service must 
maintain ownership of these aircraft, which is not your current model. 
What type of contract do you plan to use, and how much will the C-27Js 
cost to operate?
    Answer. The Forest Service would retain ownership when the aircraft 
are transferred. The only contracts would be for pilot and maintenance 
services from private industry. We are still analyzing the potential 
operating costs.
    Question. How do you propose to pay for the C-27Js, taking into 
account the continuing costs of the Legacy and Next Generation 
contracts?
    Answer. The Forest Service would pay for C-27Js within our 
requested budget by implementing programmatic efficiencies and 
identifying firefighter resource allocation changes and reduction that 
will decrease our costs and maintain our operational capability. 
Programmatic efficiencies include implementation of optimized 
dispatching analysis, streamlining of our IT investments through the 
Wildland Fire IT initiative, and a decrease in programmatic overhead 
costs.
    Question. The Air Tanker Modernization Strategy called for 18 to 28 
large airtankers with at least a 3,000-gallon capacity, which is not 
possible for the C-27Js. Does that mean that you also plan to pursue 
other contract aircraft that meet the requirements set in your 
modernization strategy?
    Answer. The C-27Js would be considered medium airtankers, but would 
meet most of the other requirements to be considered a Next Generation 
Airtanker. In effect, two C-27Js would equal one large airtanker 
referenced in the Large Airtanker Modernization Strategy. We will 
continue to contract for airtankers from private industry. Seven 
contracts have been awarded for the Next Generation Large Airtanker 
services which will continue this model, providing aircraft that fit 
within the Large Airtanker Modernization Strategy.
                  community wildfire protection plans
    Question. You also stated in your testimony that there are now 
70,000 communities across the country at risk due to forest fires, but 
only 15,000 of those communities have wildfire protection plans. What 
incentives does this budget propose to improve that statistic?
    Answer. The Forest Service prioritizes treatments identified in a 
Community Wildfire Protection Plan (CWPPs) or equivalent plan and works 
in close coordination with communities at risk in the Wildland Urban 
Interface. This includes providing funding for development of CWPPs and 
providing technical assistance directly to communities when they are 
undergoing preparation of a CWPP. However, there is no requirement for 
communities, counties or States to develop CWPPs.
    Question. Why aren't more communities working on Fire Plans?
    Answer. Community Wildfire Protection Plans (CWPP) are most 
prevalent in the western United States, where significant portions of 
counties are covered by Forest Service or Department of the Interior 
lands. The eastern and southern portions of the country, however, often 
use tools other than a CWPP to prepare for wildland fire (and other 
hazards) and to identify priority acres for treatment. A CWPP may not 
be the right tool in communities that are not close in proximity to 
Federal lands or in communities focused more broadly on multiple types 
of hazards, such as hurricanes.
    Question. Other than the clear risk of fire, are there consequences 
for communities that do not want to create Fire Plans?
    Answer. Community Wildfire Protection Plans are an important tool 
in helping communities prepare for wildland fire. The Forest Service 
prioritizes treatments identified in a CWPP or equivalent plan and 
works in close coordination with communities at risk in the Wildland 
Urban Interface (WUI). This coordinates with funding for the 
development of CWPPs and providing technical assistance directly to 
communities while they prepare a CWPP. However, there is no requirement 
for communities, counties or States to develop CWPPs. Therefore, not 
all National Forest System lands in the WUI are identified in a CWPP.
                                 ______
                                 
                Question Submitted by Senator Jon Tester
    Question. Within the next 2 weeks, Chief Tidwell will decide 
whether or not to override the next-generation large airtanker contract 
intent to award protest. Can you provide a status update?
    Answer. On June 7, 2013, Neptune withdrew their protest. The Forest 
Service moved forward to award the remaining four line items in the 
next-generation large airtanker contract that same day.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. Chief, as you know my State of New Mexico has experienced 
devastating wildfires the past 2 years, and we are now in our third 
year of extreme drought. I am concerned that the President's fiscal 
year 2014 budget request has a substantial reduction for the hazardous 
fuels program.
    I realize that a direct budget comparison for your requested 
funding for hazardous fuels is complicated by the budget restructuring 
you request for the ``Integrated Resources Restoration'' (IRR) 
activity, but I understand that your request is about a 20 percent 
reduction from the current fiscal year 2013 level. (That assumes your 
hazardous fuels program budget of $300 million for the current year, 
after the sequestration, and a request for fiscal year 2014 of $201 
million, plus perhaps $40 million or so within the Integrated Resources 
Restoration account for hazardous fuels type projects.)
    What do you expect the impacts to be if this reduction in hazardous 
fuels funding are maintained?
    Answer. This reduction is just one of many difficult tradeoffs that 
had to be made, while fulfilling our commitment to request funding for 
the 10-year average for suppression funding.
    The reduction in fuels funding will result in fewer acres of 
hazardous fuels treated, but still allows us to treat 685,000 of the 
highest priority acres each year. We will continue to focus on the 
highest priority areas in the WUI to protect communities and create 
defensible space for firefighters to work in. Funds that may have been 
spent outside the WUI in previous years will now be part of IRR to 
support integrated restoration of National Forest System lands.
    Question. Will this reduction in funding for dealing with Hazardous 
Fuels make communities more at risk?
    Answer. Firefighter and public safety will remain our number one 
priority. The Forest Service will continue to prioritize our work to 
accomplish the most important hazardous fuels projects. The highest 
priority projects are focused where the threat is high, where we can 
make a difference, and where we have community partners.
    Scientific analysis and our monitoring have shown a strong 
correlation between hazardous fuel treatments and reduced wildfire 
behavior when a wildfire burns through a treated area. The treatments 
are also beneficial to fire suppression forces. We know these outcomes 
reduce risk to communities. However, because of the random nature of 
wildfires it is impossible to quantify the impacts of this reduction in 
terms of hypothetical increased risk or potentially less effective 
wildfire suppression.
    Question. Chief Tidwell, it is my understanding that the 
President's fiscal year 2014 budget removes the Valles Caldera National 
Preserve line item, but that the Service intends to fund the Preserve 
through other Budget Line Items. The Valles Caldera National Preserve 
is very important to New Mexicans and we are very concerned that the 
Preserve continues to be well managed.
    What kind of assurance can you give folks in my State that the 
elimination of this line Item would NOT impact the continued funding of 
the preserve?
    Answer. While the fiscal year 2014 President's budget does not 
propose a separate funding level for management of the Valles Caldera 
National Preserve, the Forest Service will continue to fund the Valles 
Caldera National Preserve through a variety of budget lines that are 
directly relevant to the work being completed. These fiscal year 2014 
funds would support the integrated program management objectives of the 
Preserve.
    The Preserve could expect to receive funding from the relevant 
budget line items (BLI) in the range of its historic appropriations 
under the former BLI, which would be approximately $3 million at the 
fiscal year 2014 President's budget level.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                         cube cove acquisition
    Question. This is in regards to continuing discussions regarding 
the Forest Service's potential acquisition of Shee Atika Incorporated's 
lands at Cube Cove on Admiralty Island. While it is my understanding 
there has been no final response, I have been told that the Forest 
Service staff has stated an intention to deny Shee Atika request for a 
``mutually agreeable'' appraiser. Shee Atika believes that such a 
process is allowed by Forest Service Regulations.
    What is the status of this request?
    Answer. The Forest Service has looked further into completing an 
appraisal for the Cube Cove lands on Admiralty Island that could meet 
Government requirements that might be agreeable to Shee Atika. In our 
May 3, 2013 response to them, we indicated that under the Federal 
Acquisition Regulations (FAR), activities related to the development of 
contract requirements and the source selection process for a Federal 
Government contract are inherently governmental and may only be 
performed by Federal employees.
    Question. How does the Forest Service intend to move forward with 
Shee Atika in a manner that protects the value and promise to Shee 
Atika of the Alaska Native Claims Settlement Act, while also protecting 
the interests of the Forest Service?
    Answer. Since Shee Atika has expressed desire to have an active 
participatory role in the selection of the appraisal firm, the Forest 
Service has offered to appoint someone acceptable to Shee Atika to be a 
temporary, uncompensated ``special Government employee'' (SGE). The SGE 
would have access to contractor and source selection information and 
could participate in the evaluation and source selection process to the 
extent permitted by the Forest Service. The Forest Service will need a 
willing seller letter from Shee Atika prior to moving ahead with the 
contract acquisition process for the appraisal.
    Shee Atika wrote Chief Tidwell on May 10, 2013 respectfully 
requesting a meeting with him as soon as possible to further discuss 
the appraisal process. This meeting has not yet been scheduled. The 
Forest Service is also evaluating the mineral potential of the area to 
assess the risks of acquiring a split estate (surface only).
                          air tour operations
    Question. I am hearing a great deal from my constituents in 
Ketchikan that the Forest Service's reduction of permit allocations in 
Misty Fjords National Monument and Traitors Cove in the Tongass will 
push air taxi businesses to the brink of financial collapse. As you 
know, tourism is becoming the predominant industry in Ketchikan, and 
your own budget puts a greater emphasis on the importance of outdoor 
recreation on our national forests to the national and local economies. 
The monument is accessible only by water and air, so any reductions to 
air permit allocations directly limits visitor access and the tourism 
dollars it generates. There is little evidence that the monument is 
threatened by visitor overuse. One air taxi company has seen its 
permits cut from 300 to 165; another from 1,600 to 1,191; and another 
from 500 to 298. These are real businesses providing jobs for real 
people. I don't know of many operators that can survive with a 45 
percent cut to their business.
    What are the other ``uses'' that the USFS is concerned that the air 
tour operators are negatively impacting?
    Answer. We are concerned about the effects of motorized floatplane 
traffic on the wilderness character of Misty Fjords National Monument, 
the impacts of outfitters and guides on wildlife resources in the area, 
and conflicts between guided visitors and unguided public recreational 
use of the area.
    In January 2012, the Ketchikan-Misty Fjords Outfitter and Guide 
Management Plan Final Environmental Impact Statement (FEIS) and Record 
of Decision (ROD) were completed which reduce commercial visitor use in 
the Misty Core Lakes. This decision established seasonal visitor 
capacities and outfitter and guide allocations for 28 Recreation Use 
Areas on the District. There is a perception that the decision reduced 
commercial visitor use at the Margaret Creek Wildlife Observation Site 
at Traitors Cove but this is not the case.
  --The Ketchikan-Misty Fjords Outfitter and Guide (O/G) Management 
        Plan EIS and ROD reduced commercial visitor use in the Misty 
        Core Lakes area of the Misty Fjords National Monument 
        Wilderness by about 27 percent.
  --Contrary to public perception, the ROD allows for a 49 percent 
        increase in 
        O/G use at the Margaret Creek Wildlife Observation Site in 
        Traitors Cove.
    Question. What steps can be taken to help mitigate the current 
situation?
    Answer. Due to concerns that limiting the amount and location of 
outfitter and guide use may not adequately provide for industry 
stability and growth, the Record of Decision for the Ketchikan-Misty 
Fjords Outfitter and Guide Management Plan allocated 53,997 service 
days annually to outfitters and guides. The highest actual use reported 
by outfitters and guides between 2005 and 2009 was 24,245 service days. 
Thus, the decision allows outfitter and guide use across the Ketchikan-
Misty Fjords District to increase over 100 percent from the reported 
highest use levels.
    The Forest Service also met with commercial air service providers 
on May 6, 2013 in Ketchikan, Alaska, to discuss the issues you have 
raised, to explain what was in the actual decision, and to discuss the 
new permit allocations. At the conclusion of the meeting, the Forest 
Service committed to meet again with the air service providers at the 
end of the season to review actual use versus permitted use. The 
Ketchikan-Misty Outfitter and Guide Management Plan include an adaptive 
management strategy to allow changes to be made if experience shows 
they are needed.
    Accordingly, by doubling the outfitter guide use across the 
District, and by incorporating a flexible adaptive management strategy 
to incorporate changes as needed in the future, the Ketchikan-Misty 
Fjords Outfitter and Guide Management Plan will facilitate growth of 
the industry while maintaining quality visitor experiences.
    Question. How many non-air visits are made to Misty Fjords each 
year?
    Answer. The Forest Service does not have reliable information about 
unguided visitor use numbers for Misty Fjords. Most unguided visitors 
access Misty Fjords National Monument Wilderness via motorized boat or 
sea kayak. Many of these visits are by local residents via privately 
owned boats. There is no practical way to know how many such visits are 
made.
    Question. Is the USFS concerned that a number of these businesses 
will be put out of business if the current allocation numbers hold? 
What suggestions do you have, Chief, to help me resolve these 
disagreements?
    Answer. The Forest Service has always been concerned about the 
economic health of rural communities throughout Southeast Alaska. The 
Alaska Region has made significant investment in a wide variety of 
resource areas to expand business opportunities across the Tongass. In 
this particular case, the Tongass National Forest limited the amount of 
outfitter guide use in one area to maintain its Wilderness character 
and quality visitor experiences, while allowing for growth in other 
areas of the Ketchikan Misty Ranger District.
                        timber budget nationally
    Question. I, along with 12 of my colleagues, signed a bipartisan 
letter on May 2 to the President asking him to reconsider the reduction 
of national timber targets by 15 percent.
    I understand that you are working with tight budgets, but can you 
explain to me why you reduced the timber targets so drastically when 
just last year you testified about the need to ramp up to 3 billion 
board feet as part of the agency's restoration strategy?
    Answer. Continuing to increase the Agency's targets is challenging 
and will be slowed during the effort to reduce Federal deficits and the 
national debt. Based on the Integrated Resource Restoration (IRR) 
funding level proposed in the fiscal year 2014 President's budget, the 
expected output is approximately 2.38 billion board feet of timber 
volume sold. This budget request provides for continued strategic 
investments in the highest priority activities while also constraining 
spending in other activities to contribute to budget savings at the 
national level.
    Approximately 51 percent of the funding for forest products is 
directed at preparing, offering, and selling new sales which is the 
basis for the output of timber volume sold. The remaining funding pays 
for administering the harvest of timber sales already under contract 
and handling ``walk-in'' business from citizens for firewood permits 
and special forest products. The Agency is contractually obligated to 
administer existing contracts and will continue to provide personal use 
permits for firewood and other special forest products. Thus, a 5 
percent reduction in the total forest products program is actually a 10 
percent reduction in funding available to prepare and sell new timber 
volume.
    In addition, timber volume is not related to a single funding line 
item, but is a result of multiple National Forest System BLIs, Capital 
Improvement and Maintenance BLIs, permanent authorities, and trust 
funds. All of these funds were reduced by the sequestration and will 
continue to be constrained as we do our part to contribute to budget 
savings at a national level.
    The fiscal year 2014 President's budget proposes a wide variety of 
management activities associated with IRR and is designed to balance 
the needs to maintain, enhance, or restore watersheds at the landscape 
level, and meet statutory requirements needed for sound resource 
management. We will also continue providing the public fuel wood 
program out of the decreased funds. The Forest Service continues to 
explore ways to increase efficiencies to increase the pace of 
restoration through such things as NEPA efficiencies, stewardship 
contracting, and large scale projects.
    Question. I note that you have increased your request for land 
acquisition by $76 million--a 75 percent increase.
    With 75 million to 80 million acres in need of restoration 
treatments, couldn't you reduce part of this request to keep on a path 
toward the 3 billion board foot goal? I would view taking care of what 
we already have as more important than adding more land that we can't 
take care of.
    Answer. Land acquisitions are in response to public demand, as 
outlined in the America's Great Outdoors Initiative. The fiscal year 
2014 program targets include new measures for acres acquired or donated 
using mandatory funds and high-priority acres acquired or donated using 
mandatory funds. For Land Acquisition, we propose a little more than 
$58 million in discretionary funding; an increase of around $8.2 
million from fiscal year 2013 enacted levels after sequestration. We 
also propose almost $34 million in mandatory funding, from the Land and 
Water Conservation Fund, for a combined total of $92 million. All Land 
Acquisition projects are within National Forest boundaries and 
acquiring them will reduce confusion and costs associated with boundary 
management, landscape-scale conservation and fire suppression, as well 
as costs to communities providing services to remote and fragmented 
land ownership. Acquiring these proposed land acquisition projects will 
reduce overall management costs.
    The Forest Legacy program is also important because funds are used 
to permanently protect working forests from development, helping to 
create and maintain rural jobs, conserve air and water quality, and 
provide habitat for threatened or endangered wildlife or fish. The 
increase is a key component of the President's America's Great Outdoors 
Initiative to conserve important landscapes and reconnect Americans to 
the outdoors. For the Forest Legacy Program, we propose $60 million in 
discretionary funding; an increase of around $9.5 million from fiscal 
year 2013 enacted levels after sequestration. We also are requesting 
$24.8 million in mandatory funds, from the Land and Water Conservation 
Fund, for a total of $84.8 million.
    Question. Chief Tidwell stated that he would like to work with 
Congress on using ``export'' values in timber appraisals. What is this 
referring to exactly?
    Answer. Current Region 10 policy uses export values for 50 percent 
of the spruce and hemlock volume in a timber sale appraisal, consistent 
with the volume we allow to be exported, and that has helped the 
program significantly since its inception. The Region could increase 
the percentage of exportable volume to 75 or 100 percent for spruce and 
hemlock and appraise accordingly with export values and might very well 
have more positive value sales available for offer. However, the result 
might be unacceptable in that mill jobs could be lost while logging and 
export processing jobs increased.
                           fire and aviation
    Question. I'm very concerned about the current state of our fixed 
wing airtanker fleet. You have included a request for $50 million for 
airtanker modernization but there is virtually no indication of how 
these funds will be spent in your budget justification.
    If these funds are provided, how exactly will they be expended?
    Answer. The $50 million that we have requested would help offset 
the additional cost for the next generation aircraft, plus the 
additional cost for the legacy aircraft. As anticipated, legacy 
aircraft expenses have gone up with the new contract. Additionally, the 
funds would help cover cancellation charges for which we are required 
to budget.
    Question. The agency recently awarded a contract for ``next 
generation'' air tankers but it was reported last week that one company 
already plans to file a bid protest.
    Can you tell us how long will it take to resolve the bid protest?
    Answer. Neptune Aviation has withdrawn their protest as of Friday, 
June 7, 2013. Three of the line items from the next generation large 
airtanker contract were awarded on May 31, 2013. The remaining four 
were awarded on June 7, 2013 following Neptune Aviation's decision to 
withdraw their protest.
    Question. Neptune Aviation, the company filing the bid protest, has 
met with my staff and claims that even if they had not filed a protest 
the ``next generation'' aircraft would not be ready to be in the air 
for several months. How do you respond to that claim?
    Answer. One airtanker awarded on May 31 is currently approved and 
operating under the next generation contract. The other six aircraft 
are scheduled for retardant tank testing and we expect them to meet the 
timeline of operating 60 to 90 days after the award.
    Question. Without these new tankers, how many airtankers will you 
have at your disposal?
    Answer. We do expect to have the new next generation large 
airtankers in operation this fire season, however without them we 
should have 16 to 18 airtankers on current or potential exclusive use 
or call when needed contract.
    Last year's Defense Authorization bill included language concerning 
surplus C-27J aircraft operated by the military. The language gave the 
Forest Service the opportunity to possibly obtain some of these 
aircraft if the military declared them as surplus. I also understand 
the Coast Guard and National Guard have an interest in these aircraft.
    Question. How many of these C-27Js may be declared surplus by the 
military and what can you tell us about the likelihood of the Forest 
Service obtaining these planes compared to the other agencies?
    Answer. The C-27J aircraft being excessed by the Department of 
Defense would be available through the National Defense Authorization 
Act (NDAA), which allowed for up to seven aircraft to be transferred to 
the Forest Service. The NDAA gives right of first refusal to the 
Secretary of Agriculture.
    Question. Even if you obtain these aircraft, how long will it take 
to get them ready to drop retardant? It is my understanding that the 
interior tanks (``MAFFS'' units) have not been designed yet for these 
planes.
    Answer. The transfer timeline of the C-27Js is dependent on the 
Department of Defense. The Forest Service is ready to take ownership of 
these aircraft. Long-term plans will depend on interest from the U.S. 
Coast Guard and other Federal agencies in the C-27J. None of the MAFFS 
systems will fit into the C-27J. A new design will need to be created 
which incorporates the latest in technology and lighter weight 
components. In order for these aircraft to be used as medium 
airtankers, the Forest Service will have to solicit for contract 
services to design and manufacture retardant delivery systems, which is 
expected to take up to 18 months. If the Forest Service receives the 
aircraft sooner rather than later, one or more might be configured for 
general fire support missions such as firefighter or cargo transport 
later this fire season.
                    integrated resource restoration
    Question. For the past 3 years, the agency's budget request 
consolidates several programs including timber, wildlife, and planning 
into one line item called ``Integrated Resource Restoration.'' 
Currently, you have authority to operate a pilot for this program in 
Regions 1, 3, and 4. I personally believe we need to see concrete 
results that demonstrate improved performance before we can approve 
such an approach for all Regions on a permanent basis.
    My staff has told me that they have been briefed by the agency and 
there is still not sufficient information to determine whether the IRR 
lowers costs and achieves better results on the ground.
    Why does the agency continue to propose this consolidation when the 
information the committee needs to make an informed decision is simply 
not available?
    Answer. The flexibility provided by the Integrated Resource 
Restoration program (IRR) has allowed focused investment on landscape-
level restoration projects that otherwise have been split into several 
projects over the course of many years. To fully realize the 
flexibility of budget line items created through IRR, it must be 
expanded to a full Agency-wide authority. In doing so, the Agency can 
focus resources on integrated ecosystem restoration across the country.
    The Forest Service issued a progress report on April 15, 2013, 
describing the results of the IRR pilot program for fiscal year 2012. 
In 2012 the IRR pilot program exceeded or met its targets for moving 
watersheds to an improved condition class, acres treated to sustain or 
restore watershed function and resilience, miles of stream habitat 
restored or enhanced, and miles of road decommissioned. The pilot 
regions achieved over 80 percent of their target for timber volume; the 
shortfall was due to litigation in the pilot region independent of the 
IRR authority. The Forest Service will continue to monitor and report 
the performance results of the IRR pilot regions.
    The fiscal year 2014 President's budget continues to emphasize 
Integrated Resource Restoration as the leading approach to accomplish 
on-the-ground restoration. This work will lead to improved forest and 
grassland health and resilience using landscape scale restoration to 
recover watershed health and improve water and create or maintain local 
economic opportunities and jobs.
    Question. When do you anticipate having comprehensive quantitative 
measures by which the committee can decide whether moving to the IRR is 
a better approach than the current budget structure?
    Answer. The Forest Service issued a progress report on April 15, 
2013, describing the results of the IRR pilot program for 2012. The 
Agency has initiated a third-party monitoring of IRR with Colorado 
State University and the University of Oregon; it will begin June 2013 
and be completed by March 2015. While we can already provide 
quantitative measures on outputs and outcomes as provided in response 
to the prior question, we will continue to work with the committee to 
provide needed information.
    The IRR accomplishments for Regions 1, 3, and 4 are presented below 
for fiscal years 2008 to 2012 as are the accomplishments for non-IRR 
regions for comparison. The regions began implementation of the IRR 
pilot authority in fiscal year 2012 with passage of the Consolidated 
Appropriations Act of 2012.

                                          IRR PILOT REGIONS 1, 3, AND 4
----------------------------------------------------------------------------------------------------------------
                       Region                            2008        2009        2010        2011        2012
----------------------------------------------------------------------------------------------------------------
Region 1:
    Miles of stream habitat restored or enhanced....         297         420         657         396         426
    Miles of roads decommissioned...................         346         363         561         257         383
    Acres treated annually to sustain or restore      ..........  ..........  ..........     246,695     307,420
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........           2
     condition class................................
    Volume of timber sold (million board feet)......       240.2       293.1       256.9       210.6       206.1
Region 3:
    Miles of stream habitat restored or enhanced....         121         177         127         151         162
    Miles of roads decommissioned...................          46         103          25          57          69
    Acres treated annually to sustain or restore      ..........  ..........  ..........     296,944     198,574
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........  ..........
     condition class................................
    Volume of timber sold (million board feet)......       123.5       111.9       138.6       131.9       124.4
Region 4:
    Miles of stream habitat restored or enhanced....         232         296         355         238         346
    Miles of roads decommissioned...................         162         320         792         325         286
    Acres treated annually to sustain or restore      ..........  ..........  ..........     222,789     283,795
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........           3           1
     condition class................................
    Volume of timber sold (million board feet)......       117.0       103.5       112.9       118.7       110.7
----------------------------------------------------------------------------------------------------------------

    The number of watersheds moved to an improved condition class and 
acres treated annually to sustain or restore watershed function and 
resilience were both new performance measures in fiscal year 2011. 
There are no prior data for these two measures.
    Volume of timber sold, miles of roads decommissioned, and miles of 
stream habitat restored or enhanced are traditional accomplishments, 
but because fiscal year 2012 was the first official year for IRR, it is 
difficult to establish valid IRR related trends at this time. We began 
implementation of the Watershed Condition Framework in fiscal year 2011 
and it takes 3 to 7 years to restore a watershed. Therefore, we expect 
the number of watersheds moved to an improved condition class to show 
an in increasing trend in future years.
    Regions not included in the IRR pilot program below are the IRR 
corollary accomplishments for Regions 2, 5, 6, 8, 9, and 10 for fiscal 
years 2008 to 2012.

                                          REGIONS NOT IN THE IRR PILOT
                                         [Regions 2, 5, 6, 8, 9, and 10]
----------------------------------------------------------------------------------------------------------------
                       Region                            2008        2009        2010        2011        2012
----------------------------------------------------------------------------------------------------------------
Region 2:
    Miles of stream habitat restored or enhanced....          90         140         108         142         222
    Miles of roads decommissioned...................         354         287         290         254         300
    Acres treated annually to sustain or restore      ..........  ..........  ..........     216,956     214,430
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........  ..........
     condition class................................
    Volume of timber sold (million board feet)......       259.9       243.4       222.3       204.7       241.3
Region 5:
    Miles of stream habitat restored or enhanced....         281       1,163         426         449         465
    Miles of roads decommissioned...................          51          94          83         249         274
    Acres treated annually to sustain or restore      ..........  ..........  ..........     164,183     249,641
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........           3
     condition class................................
    Volume of timber sold (million board feet)......       202.8       310.3       335.6       311.4       299.8
Region 6:
    Miles of stream habitat restored or enhanced....         369         373         702         696         773
    Miles of roads decommissioned...................         151         347         372         198         208
    Acres treated annually to sustain or restore      ..........  ..........  ..........     302,055     464,793
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........           1
     condition class................................
    Volume of timber sold (million board feet)......       628.0       584.4       576.7       547.6       605.6
 Region 8:
    Miles of stream habitat restored or enhanced....         509         486         551         756         670
    Miles of roads decommissioned...................          93         104         204          81         337
    Acres treated annually to sustain or restore      ..........  ..........  ..........     925,362     556,688
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........           2
     condition class................................
    Volume of timber sold (million board feet)......       515.2       466.9       502.1       542.4       557.2
Region 9:
    Miles of stream habitat restored or enhanced....         382         353         476         969         554
    Miles of roads decommissioned...................          81         144         193         103         223
    Acres treated annually to sustain or restore      ..........  ..........  ..........     211,227     246,116
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........  ..........
     condition class................................
    Volume of timber sold (million board feet)......       391.7       371.5       400.7       421.4       446.6
Region 10:
    Miles of stream habitat restored or enhanced....          67          91         173          81          87
    Miles of roads decommissioned...................           7          15          29          17          23
    Acres treated annually to sustain or restore      ..........  ..........  ..........      37,805      40,907
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........           1  ..........
     condition class................................
    Volume of timber sold (million board feet)......         5.4        22.9        45.9        44.2        52.5
----------------------------------------------------------------------------------------------------------------

                      anan creek float dock status
    Question. Anan Creek, located 30 miles southeast of Wrangell, 
Alaska, in the Tongass National Forest, is home to one of the largest 
pink salmon runs in Southeast Alaska, making it an ideal spot to watch 
black and brown bears, bald eagles and sea lions. The Forest Service 
maintains an observation platform for visitors. However, the area is 
only accessible by floatplane or boat.
    Several air charter service companies offer trips to Anan from 
local communities, especially Wrangell and Ketchikan. However, the 
current docking system in Anan Bay is only suitable for ideal weather 
conditions usually encountered during the summer months.
    I understand that a new docking facility is needed, as the current 
situation has become a safety hazard, leading to sunken and damaged 
boats and planes. This issue was raised at public meetings with the 
Forest Service earlier this year and I understand the Forest Service 
has done some preliminary engineering work there.
    Chief, I mentioned this issue to you in our ENR hearing last month 
and wanted to ask if you had a chance to look into it and give us a 
status update on the situation.
    Answer. Access from the beach to the existing Anan Trailhead has 
been a management concern since we began allowing commercial use. Some 
type of dock, or other mooring, has been identified as a need. Although 
it has been identified as a need, available funding has been allocated 
to higher priority safety and health concerns, such as minimizing bear-
human encounters and proper handling of human waste at the site.
    Some work has been completed on a long-term solution for improving 
safety and accessibility of the bear viewing facilities. Conceptual 
designs have identified several options; the most practical option is a 
floating dock that could be beached in the off season. One potential 
site is at the head of the cove near the Forest Service cabin. This 
would complement the existing small float, but it may conflict with use 
of the cabin.
    Another site being evaluated is in the cove where the Anan 
Administrative Facility is anchored. Integrating the dock into that 
floating facility has advantages. Connecting the floating dock to a 
staircase would make it more difficult to ensure an accessible 
facility, however. Finally, it may be difficult to construct accessible 
trails from the dock to the current trailhead.
    In short, the Tongass National Forest is aware of the issues and is 
evaluating the best way to resolve them. Further NEPA analysis will be 
necessary before a dock or mooring facility can be built.
                number of forest service employees in se
    Question. The State of Alaska has a large percentage of Federal 
employees living in our State. These Alaskans are paid good wages and 
are important contributors to our economy, especially in many rural 
places throughout the State. These folks are our little league coaches, 
neighbors and community leaders.
    I'm concerned about the downturn of timber harvesting and the loss 
of related jobs on the Tongass. And I hear you saying that one of the 
reasons for this downturn is tight resources. I understand that you 
have over 350 employees working on the Tongass.
    While I understand that the Tongass is expansive with several 
Ranger Districts working 17 million acres of land, I want to make sure 
you have enough people working on arguably the most important mission 
priority of the Service--one that promotes private sector jobs in these 
rural areas.
    How many employees do you have working on timber?
    Answer. There are 112 positions in Forest Management in the Tongass 
National Forest Supervisor's Office and Ranger Districts.

         TONGASS NATIONAL FOREST, FOREST MANAGEMENT ORGANIZATION
------------------------------------------------------------------------
                                                              Number of
  Series                      Series Name                     Positions
------------------------------------------------------------------------
           Supervisor's Office:
      0460     Forester                                              9
      0462     Forestry Technician                                   3
      0807     Landscape Architect                                   3
      1315     Geologist                                             2
      0193     Archeologist                                          1
      0401     Recreation                                            1
      1101     NEPA Coordinator                                      2
      1082     Writer/Editor                                         1
      0408     Ecologist                                             3
      1035     Public Affairs                                        1
      0802     Engineering Tech                                      2
      0810     Engineer/Transportation Planner                       2
      1315     Hydrologist                                           1
      0482     Fish Biologist                                        1
      0470     Soils                                                 2
      2210     GIS                                                   5
      0301     NEPA Planner                                          2
      0486     Wildlife Biologist                                    1
           Ranger District Offices:
      0460     Forester                                             24
      0462     Forestry Technician                                  17
      0404     Fish Technician                                       2
      0193     Archeologist                                          5
      0401     Natural Resource                                      6
      1101     Specialist (NEPA, IDT Leader) NEPA                    2
                Coordinator
      1082     Writer/Editor                                         3
      0408     Ecologist                                             1
      1315     Hydrologist                                           2
      0482     Fish Biologist                                        3
      0470     Soils                                                 1
      0301     NEPA Planner                                          1
      0486     Wildlife Biologist                                    3
                                                          --------------
                 Total Employees Tongass National Forest           112
------------------------------------------------------------------------

                         CONCLUSION OF HEARINGS

    Senator Reed. With that, the hearing is concluded.
    [Whereupon, at 11:01 a.m., the hearings were concluded, and 
the subcommittee was recessed, to reconvene subject to the call 
of the Chair.]

</pre></body></html>
